<html>
<title> - UNION STATION: A COMPREHENSIVE LOOK AT THE PRIVATE MANAGEMENT, THE PUBLIC SPACE, AND THE INTERMODAL SPACES PRESENT AND FUTURE</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]


 
  UNION STATION: A COMPREHENSIVE LOOK AT THE PRIVATE MANAGEMENT, THE 
       PUBLIC SPACE, AND THE INTERMODAL SPACES PRESENT AND FUTURE

=======================================================================

                               (110-155)

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
    ECONOMIC DEVELOPMENT, PUBLIC BUILDINGS, AND EMERGENCY MANAGEMENT

                                 OF THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                               __________

                             JULY 22, 2008

                               __________

                       Printed for the use of the
             Committee on Transportation and Infrastructure


                   U.S. GOVERNMENT PRINTING OFFICE
43-753 PDF                  WASHINGTON : 2008
----------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001


             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                 JAMES L. OBERSTAR, Minnesota, Chairman

NICK J. RAHALL, II, West Virginia,   JOHN L. MICA, Florida
Vice Chair                           DON YOUNG, Alaska
PETER A. DeFAZIO, Oregon             THOMAS E. PETRI, Wisconsin
JERRY F. COSTELLO, Illinois          HOWARD COBLE, North Carolina
ELEANOR HOLMES NORTON, District of   JOHN J. DUNCAN, Jr., Tennessee
Columbia                             WAYNE T. GILCHREST, Maryland
JERROLD NADLER, New York             VERNON J. EHLERS, Michigan
CORRINE BROWN, Florida               STEVEN C. LaTOURETTE, Ohio
BOB FILNER, California               FRANK A. LoBIONDO, New Jersey
EDDIE BERNICE JOHNSON, Texas         JERRY MORAN, Kansas
GENE TAYLOR, Mississippi             GARY G. MILLER, California
ELIJAH E. CUMMINGS, Maryland         ROBIN HAYES, North Carolina
ELLEN O. TAUSCHER, California        HENRY E. BROWN, Jr., South 
LEONARD L. BOSWELL, Iowa             Carolina
TIM HOLDEN, Pennsylvania             TIMOTHY V. JOHNSON, Illinois
BRIAN BAIRD, Washington              TODD RUSSELL PLATTS, Pennsylvania
RICK LARSEN, Washington              SAM GRAVES, Missouri
MICHAEL E. CAPUANO, Massachusetts    BILL SHUSTER, Pennsylvania
TIMOTHY H. BISHOP, New York          JOHN BOOZMAN, Arkansas
MICHAEL H. MICHAUD, Maine            SHELLEY MOORE CAPITO, West 
BRIAN HIGGINS, New York              Virginia
RUSS CARNAHAN, Missouri              JIM GERLACH, Pennsylvania
JOHN T. SALAZAR, Colorado            MARIO DIAZ-BALART, Florida
GRACE F. NAPOLITANO, California      CHARLES W. DENT, Pennsylvania
DANIEL LIPINSKI, Illinois            TED POE, Texas
NICK LAMPSON, Texas                  DAVID G. REICHERT, Washington
ZACHARY T. SPACE, Ohio               CONNIE MACK, Florida
MAZIE K. HIRONO, Hawaii              JOHN R. `RANDY' KUHL, Jr., New 
BRUCE L. BRALEY, Iowa                York
JASON ALTMIRE, Pennsylvania          LYNN A WESTMORELAND, Georgia
TIMOTHY J. WALZ, Minnesota           CHARLES W. BOUSTANY, Jr., 
HEATH SHULER, North Carolina         Louisiana
MICHAEL A. ARCURI, New York          JEAN SCHMIDT, Ohio
HARRY E. MITCHELL, Arizona           CANDICE S. MILLER, Michigan
CHRISTOPHER P. CARNEY, Pennsylvania  THELMA D. DRAKE, Virginia
JOHN J. HALL, New York               MARY FALLIN, Oklahoma
STEVE KAGEN, Wisconsin               VERN BUCHANAN, Florida
STEVE COHEN, Tennessee               ROBERT E. LATTA, Ohio
JERRY McNERNEY, California
LAURA A. RICHARDSON, California
ALBIO SIRES, New Jersey
VACANCY

                                  (ii)

  
?

 Subcommittee on Economic Development, Public Buildings, and Emergency 
                               Management

        ELEANOR HOLMES NORTON, District of Columbia, Chairwoman

MICHAEL H. MICHAUD, Maine            SAM GRAVES, Missouri
JASON ALTMIRE, Pennsylvania          BILL SHUSTER, Pennsylvania
MICHAEL A. ARCURI, New York          SHELLEY MOORE CAPITO, West 
CHRISTOPHER P. CARNEY,               Virginia
Pennsylvania, Vice Chair             CHARLES W. DENT, Pennsylvania
TIMOTHY J. WALZ, Minnesota           JOHN R. `RANDY' KUHL, Jr., New 
STEVE COHEN, Tennessee               York
JAMES L. OBERSTAR, Minnesota         JOHN L. MICA, Florida
  (Ex Officio)                         (Ex Officio)

                                 (iii)

                                CONTENTS

                                                                   Page

Summary of Subject Matter........................................    vi

                               TESTIMONY

Ball, David, President, Union Station Redevelopment Corporation..    13
Chambers, Bryant, Assistant General Manager, Jones Lang Lasalle, 
  Inc............................................................    13
Leach, David, President and Chief Executive Officer, Greyhound 
  Lines, Inc.....................................................    41
Levy, Daniel, Counsel from Kriss and Feuerstein LLP, Ashkenazy 
  Acquisition Corporation........................................    13
McCann, Erin, Private Photographer...............................     6
Moneme, Emeka, Director, District Department of Transportation...    41
Wilbur, Thomas, Senior Vice President, Akridge Corporation.......    41

          PREPARED STATEMENTS SUBMITTED BY MEMBERS OF CONGRESS

Altmire, Hon. Jason, of Pennsylvania.............................    58
Cummings, Hon. Elijah E., of Maryland............................    59
Graves, Hon. Sam, of Missouri....................................    68
Mica, Hon. John L., of Florida...................................    73
Norton, Hon. Eleanor Holmes, of the District of Columbia.........    77
Oberstar, Hon. James L., of Minnesota............................    81

               PREPARED STATEMENTS SUBMITTED BY WITNESSES

Ball, David S....................................................    82
Chambers, Bryant P...............................................   125
Leach, David.....................................................   128
Levy, Daniel.....................................................   131
McCann, Erin.....................................................   143
Moneme, Emeka....................................................   156
Wilbur, Thomas...................................................   160

                       SUBMISSIONS FOR THE RECORD

Ball, David, President, Union Station Redevelopment Corporation, 
  responses to questions for the record..........................   105

                        ADDITIONS TO THE RECORD

American Bus Association, Peter J. Pantuso, President and CEO, 
  written statement..............................................   163
Government of the District of Columbia, Department of 
  Transportation, Frank Seales, Jr., Interim Director, written 
  statement......................................................   168
Megabus Northeast, LLC, Don Carmichael, Vice President, written 
  statement......................................................   170

[GRAPHIC] [TIFF OMITTED] T3753.001

[GRAPHIC] [TIFF OMITTED] T3753.002

[GRAPHIC] [TIFF OMITTED] T3753.003



 UNION STATION: A COMPREHENSIVE HEARING ON THE PRIVATE MANAGEMENT, THE 
        PUBLIC SPACE, AND THE INTERMODAL USES PRESENT AND FUTURE

                              ----------                              


                         Tuesday, July 22, 2008

                  House of Representatives,
    Committee on Transportation and Infrastructure,
Subcommittee on Economic Development, Public Buildings and 
                                      Emergency Management,
                                                    Washington, DC.
    The Subcommittee met, pursuant to call, at 10:10 a.m., in 
Room 2167, Rayburn House Office Building, Hon. Eleanor Holmes 
Norton [Chair of the Subcommittee] presiding.
    Ms. Norton. Good morning. I welcome today's witnesses to 
our Subcommittee hearing on public access, security and the 
future of the Union Station complex as an important intermodal 
center for all modes of transportation.
    The current management structure at Union Station, the 
Union Station Redevelopment Corporation, or USRC, was created 
in 1981 at the direction of Congress, and Congress later 
competed the air rights that will expand the station's capacity 
to become a world-class intermodal and mixed use public-private 
facility.
    Ownership of Union Station, as the bill report reiterated 
and made clear, "shall remain with the Federal Government." 
However, we are unable to find evidence of congressional 
oversight of Union Station since its redevelopment. Now that 
there is a new congressional majority with Union Station under 
our jurisdiction, this hearing commences regular oversight.
    Union Station began as a train facility for the Nation's 
Capital whose grand design was commissioned by Congress to 
produce a landmark building. However, as rail use declined in 
the 1950s, the station rapidly deteriorated, and a series of 
failed ideas, wasted Federal funds, cost overruns, major 
utility needs, mismanagement and litigation resulted.
    In 1981, after portions of the roof collapsed during 
structural repairs, Union Station was closed to the public, 
forcing passengers to walk a third of a mile around a closed 
building to the replacement station. Congress stepped up later 
that year and spent purchase payments on Union Station to 
obtain earlier-planned Federal ownership from Baltimore and 
Penn Terminal Reality.
    After $180 million public-private renovations, Union 
Station reopened to public applause in 1987, fully restored. 
The congressional authorization to purchase Union Station 
mandated the creation of a management structure, the return of 
the station to its important rail beginnings, transition to an 
intermodal center, and the private investment that has resulted 
in the retail available there today.
    Congress delegated to the Union Station Realty Corporation 
the authority and responsibility to order priorities and 
mediate the sectors in Union Station in order to safeguard the 
public interest. Like the District of Columbia itself, the 
Union Station completion contains a mix of Federal, local and 
private entities, but the overriding public interest had never 
been in doubt, to provide the public access to a federally 
owned facility, to expand modes of travel to and from the 
Nation's Capital, and to provide a secure environment.
    The public interest was strengthened when in 1971 the 
Federal Government created Amtrak in response to the sustained 
decline of passenger rail, and today the Congress puts billions 
of dollars into Amtrak to sustain this valuable public 
resource. At least since 9/11, we have seen a sharp increase in 
riders using Amtrak, whose national headquarters is Union 
Station, making more rapid movement toward genuine intermodal 
status essential. However, we have not seen evidence that the 
Union Station Redevelopment Corporation understands the 
increasingly central role of national intermodal hubs today, 
yet gas prices are driving record numbers of Americans to use 
whatever ground transportation is available.
    March 2008 showed a 4.3 percent drop in vehicle miles 
traveled, the sharpest drop for any month in U.S. highway 
history. In 2007, Americans' use of public transportation 
reached its highest levels in 50 years. What an extraordinary 
opportunity this is for the Union Station complex.
    The House has just passed the first stand-alone transit 
legislation bill since Metro was created, just as Metro is 
bursting at the seams. This week, Metro had its highest 
ridership day in its history, and eight of its top 10 ridership 
days have occurred this year.
    The House also authorized the Nation's first high speed 
rail a few weeks ago, and it will travel between the District 
and New York.
    The Capitol Visitor Center is scheduled to open in 
December. This new attraction, which will bring many more 
visitors to Washington, is one of the reasons Congress has 
insisted on a true intermodal center at Union Station.
    Today, Union Station covers 12 acres and has 2,200 parking 
spaces, 125 retail outlets, and provides access to Amtrak, the 
Washington Metropolitan Transit Authority, rail and bus, the 
Virginia Rail Express, the Maryland Rail Commuter Line, taxies, 
bicycle sharing, and other tourist-friendly transportation 
services.
    Union Station is the busiest stop on the WMATA line, with 
over 30,000 daily riders using this stop. Because of 
congressional mandates and Federal funds, the intermodal center 
at Union Station will have new parking facilities for tour 
buses, new rail concourses, streetcars that connect Union 
Station to the neighborhood, and additional security 
improvements.
    In the Balanced Budget Act of 1977, Congress directed GSA 
to dispose of the land over the railroad tracks at Union 
Station, and in 2002 the General Services Administration bid 
and sold 15 acres of air rights above the rail yard adjacent to 
Union Station. The result of the sale will be Burnham Place at 
Union Station, a 3 million square foot mixed use development 
built above the rail yard just north of Union Station and 
scheduled to include expanded transportation capabilities, 
mixed use amenities, a hotel and the like.
    The concept of Union Station as a modern intermodal center 
was detailed in a 1967 report by the National Capital Planning 
Commission, which envisioned combining intercity and intracity 
bus service with intercity rail transportation.
    Congress has strongly supported the intermodal concept with 
funds in every transportation reauthorization bill since 1991 
and in several annual appropriation bills. I secured $2.25 
million for the study currently being conducted by the District 
of Columbia Department of Transportation on the Intermodal 
Transit Center at Union Station.
    Four months ago, Chairman Jim Oberstar, Ranking Member John 
Mica, and I sent a letter to the USRC encouraging relocation of 
District's Greyhound Intercity Bus Terminal located several 
blocks to the north of Union Station. A state of the art 
intermodal center is by definition a facility that allows 
passengers to seamlessly choose and get access to all modes of 
ground transportation. Our letter reiterated the Transportation 
and Infrastructure Committee's continued work on intermodal 
development at Union Station.
    I followed with another letter on May 2, 2008, to the USRC 
asking for access for additional intercity bus companies, some 
of which currently drop off and pick up passengers on already 
crowded District streets for lack of a space to drop their 
passengers. The response to our letter cited business 
relationships as a reason why MegaBus was not allowed to 
sublease a parking spot in the parking garage.
    However, this is just the sort of arrangement that is 
needed to help Union Station more rapidly fulfill the 
congressional intermodal mandate while Burnham Place is being 
constructed and integrated over the next decade. This and other 
steps can be taken now to begin the process of converting what 
today is only a transportation hub to the world class 
intermodal center Congress has mandated. Nor did the response 
to our letter mention any other way to accommodate MegaBus or 
similar companies. Accommodation of low-cost intercity bus 
operators should not be only incorporated into USRC's business 
plan, but long ago should have been actively sought to increase 
the intermodal options available at Union Station.
    Reported first amendment violations and denial of access by 
press and the public, as well as inconsistent messages by Union 
Station personnel, are especially troubling. In June, a 
photographer was detained by Union Station security personnel 
for taking noncommercial photographs. A real-time display of 
the confusion about access came when Channel 5 TV, a major 
television outlet here, was shut down by security personnel 
while interviewing the chief spokesman for Amtrak who was 
explaining that photography was allowed. Although management 
officials asserted that a ban on photography was not the 
policy, Channel 5, National Public Radio, tourists and a host 
of amateur photographers, have been shut down or given 
inconsistent directions on photography at Union Station.
    The evidence of confusion and arbitrary actions by security 
personnel reflects the continuing absence of clarity concerning 
public access. Union Station's study appears to be a case study 
for the necessity of my bill, H.R. 3519, the Open Society with 
Security Act, to assure public safety while maintaining the 
highest level of free and open access to the public.
    The Homeland Security Committee has already indicated an 
interest in moving H.R. 3519, and it has been referred to our 
Committee by the Parliamentarian. However, the Union Station 
Redevelopment Corporation and the Union Station Management 
Company are not alone responsible for the problems and issues 
that have been reported and have arisen at Union Station. For 
years, Congress has failed to provide the necessary oversight 
and guidance. As Congress continues to invest in its intermodal 
vision of Union Station, we have a responsibility to resume 
oversight of the entire complex.
    We welcome today's witnesses and look forward to hearing 
their testimony.
    I am pleased now to ask the Ranking Member of the Full 
Committee for any remarks he may have.
    Mr. Mica. Thank you for recognizing me. I am, I guess, an 
ex officio Member of all the Subcommittees. I am not Sam 
Graves, even though I wish I was as young and handsome as him. 
I regret that he couldn't with us this morning.
    I hadn't planned on being here, but I saw the topic and 
couldn't resist being with Ms. Norton and joining her in I 
think a very important oversight hearing on Union Station to 
look at the management, public space issues and intermodal 
access questions. I commend her for that.
    Mr. Graves is not able to be with us because of connecting 
flight difficulties. Someone ought to do something about that 
in transportation, but that is the subject of another hearing. 
But I do have his statement which I would like entered into the 
record.
    Ms. Norton. So ordered.
    Mr. Mica. Again, thank you for holding this hearing. I do 
have a statement which I will submit for the record. But I 
remember Union Station when I first came to Washington was as a 
staffer back in the seventies, that was before Ms. Norton was 
born. But actually I came back again, reoccurring in the early 
eighties as Chief of Staff in the Senate. I will never forget 
Union Station was an absolute disaster, birds flying around, 
water leaking into it, a failed attempt at making it a visitors 
center. It was absolutely beyond description.
    It was through a public-private partnership and a 
substantial amount of public money, too, investment that we 
had, were able to complete, I think Elizabeth Dole was the 
Secretary of Transportation, an absolutely magnificent 
restoration and utilization of what has become a transportation 
hub, a commercial center of activity, restoration of a 
beautiful public building.
    I am not going to get into who can photograph what. I will 
leave that to Ms. Norton. There has always been controversy 
about what could be exposed in Union Station dating back to, I 
think it was Gaudens, who did the statues. They had the nude 
males which they had to cover with the shields. Maybe now we 
have to keep the press from uncovering our barest security 
secrets, but I will let you deal with that.
    My interest today is that we do conduct adequate oversight 
of the private management in these public-private partnerships. 
I was saddened to see that it took the developer, is it Akridge 
Corporation, since 2006, when they planned to do additional 
rights--I am sorry, they planned to do additional development 
and secured air rights for a 3 million square foot mixed-use 
development which would be a great addition on a comprehensive 
intermodal station. What is stunning to me, as a former 
developer, it is 2008, 2 years I guess to get some of that 
resolved. I am sorry for the developer. Time costs money and we 
don't see the projects evolving. But maybe we will hear more 
about some of the trouble they encountered. I understand it has 
to do with some of the height of the air rights and the issues 
of how much footage you can get into that space, and certainly 
when we enter into an agreement with a developer, the deal has 
to make sense for the developer and the Federal Government and 
also comply with some of the restrictions.
    Hopefully we won't get ourselves into that pickle and they 
can move forward with the intermodal terminal and this new 
addition.
    As they develop that and as they make improvements at Union 
Station, one of my concerns, and Chairwoman Norton has also 
expressed it, it is an intermodal center and that all modes be 
accommodated at that location. She had written with my joining 
her our desire to see our national surface transportation 
carrier, most people don't realize this, but we do have one, it 
is a private company, its name is Greyhound, it is actually a 
private company that makes money and stays in business by 
returning a profit, and I think we should do everything we can 
to accommodate that carrier, whether it be Greyhound or if in 
the future it is succeeded by some other private transportation 
company or, if it has competition, whoever provides that 
surface transportation should be located in not just Union 
Station, but in any federally funded intermodal center in the 
United States.
    The time to dump--the time that we dump people who use 
Greyhound or some other surface transportation at the edge of 
town or in some inconvenient location has passed. These are not 
Third World, third-class travelers. These are passengers who 
should be accommodated with intermodal surface connections, and 
we should not fund one dollar in public money for any 
intermodal center, whether it is Union Station or anywhere 
else, without making accommodations for these passengers.
    They do it so cost-effectively and actually make a return 
on investment, which is amazing sometimes in the realm of 
government thinking. But the least we can do is make an 
accommodation for that service.
    So I came here this morning to make a plea, not only at 
Union Station, but across the country. We do need to look at 
these public-private partnerships. I advocate working with the 
Chairwoman Norton. This is an incredible city to let Union 
Station, whether it was 1980 or we have examples of the old 
Post Office which has sat there for years and not been utilized 
to its maximum, whether it is the Federal Trade Commission 
building, the Apex building, or others. We can find solutions 
that work and accommodate our public need, our public facility 
requirements, and also enhance this great city and other great 
cities in the process.
    So, we need to look at these public-private partnerships 
and make certain that we help in making them go forward, that 
they are good deals for the taxpayer, good deals for the 
developer and investors who are our partners.
    So those are a couple of the points that I wanted to make 
this morning. I am trying to see if there are any other points. 
I think I have angered maybe a few people. Maybe we upset a 
couple of folks with these radical ideas like good investment 
of taxpayer dollars and convenience for the traveling public. 
But, again, I can't do anything but compliment Ms. Norton for 
her time and effort in trying to make these things work and be 
more effective and responsive.
    So I yield back.
    Ms. Norton. Well, I thank the Ranking Member, and I 
certainly thank the Ranking Member of the Full Committee for 
attending this Subcommittee hearing. But it does speak to his 
long involvement in the Union Station matter.
    As I think his comments bear out, I remind the Committee 
that the intermodal concept of Union Station has been a 
perfectly bipartisan concept. When he was in the majority and I 
was in the minority, we were on the same page, and we will 
continue to be on the same page, particularly given the Federal 
funds that are increasingly necessary to achieve that vision.
    I agree with the Ranking Member about how long it took to 
get the air rights. This was one of the most frustrating 
matters that I have been involved in since I have been in 
Congress. Obviously you have to let the parties negotiate, but 
Mr. LaTourette was the Chair. He and I and the Ranking Member, 
then Ranking Member Mr. Oberstar, met in order to press this 
forward. It was such a waste that it took so very long.
    That is why you will see Congress impatient with getting on 
with the job of intermodal work and getting on with it well 
before Burnham Place sees the light of day. This could be made 
an intermodal transportation center now, right now, with what 
it has, if there was the vision to do so on the part of those 
in charge.
    In order to simply lay the predicate, because I hate to ask 
witnesses about what somebody said when the people who said it 
are right here, so in order to lay the predicate for the first 
amendment part of this hearing, I have asked Erin McCann, who 
represents photographers who have been turned away, if she 
would testify precisely what her experience was.

         TESTIMONY OF ERIN McCANN, PRIVATE PHOTOGRAPHER

    Ms. McCann. Hello. Chairwoman Norton, Members of the 
Subcommittee, I would like to thank you for the opportunity to 
speak with you today. I have a short statement, and then I will 
be happy to answer any questions.
    My name is Erin McCann, and I am an amateur photographer. I 
am also an active member of a group called DC Photo Rights, 
which exists to document and discuss incidents in which 
photographers have been harassed by security officers or 
police. These officers often mistakenly believe that taking 
pictures in public places is illegal or requires a permit or is 
an indication that the person holding the camera is somehow a 
threat.
    I have never been clear on why exactly a camera is 
considered threatening. In the aftermath of the 2005 transit 
bombings in London, for instance, officials appealed to the 
public for snapshots taken before and after the attacks in 
their search for clues.
    An open photography policy can be a security team's best 
friend. It also liberates security and police from the task of 
investigating people like me, as I take photographs in the most 
obvious way possible. With a 10-inch lens on my camera, there 
is no disguising what I am doing.
    In Washington, certain places have the reputation of being 
unfriendly to photographers. In the 4 years that I have been 
shooting in the city, Union Station has always been one of 
those places.
    In February, I began a series of phone calls and e-mails to 
Amtrak and Jones Lang LaSalle Management to find out why. I 
have included with my written statement a timeline of my 
involvement and my frustrating search for answers. Often, my 
calls and e-mails have resulted in being given conflicting 
information, sometimes minutes apart by people in the exact 
same office.
    The statement also includes details of some of the 
incidents in which photographers have been harassed, told 
incorrect policies by misinformed station officials, and in 
certain instances been threatened with arrest for daring to 
take a simple snapshot of a national treasure. In almost every 
incident, a guard or officer has wrongly told a photographer 
that Union Station is private property and photography is not 
allowed.
    The reasons given for this fake policy vary. I was once 
told that my camera is too professional. Others have been told 
that the PATRIOT Act bans photography in train stations, a law 
that I am sure would come as a surprise to the organizers of 
the annual Amtrak station photography contest.
    I have been stopped twice in the last 3 months while 
photographing in the public areas of Union Station. Both were 
after I received explicit assurances from Amtrak and Jones Lang 
LaSalle Management that photography is allowed.
    The most recent incident was Friday when an Amtrak employee 
who refused to tell me her name or identify herself in any way 
said the building was private property and that all photography 
is prohibited.
    For many tourists, Union Station is the first stop and the 
first impression of the Nation's Capital. For a family to be 
warned or even threatened upon arrival for simply taking photos 
in one of the city's beautiful public places is reprehensible.
    My interest now is the same as it was in February when I 
first started asking questions: One, to understand what the 
photography policy is at Union Station; two, to assure that if 
there are restrictions on photography, they are clearly posted 
throughout the building; three, to make sure that those 
restrictions are fair, given the Station's unique ownership and 
its role as a major gateway for thousands of the city's 
visitors each year; and finally and most importantly, I want to 
make sure that the private guards, Amtrak police and everyone 
else in a position to interact with the public understands what 
the policy is.
    Despite repeated assurances from the management of Amtrak 
and Jones Lang LaSalle, ill-informed station employees are 
still taking it upon themselves to interpret the policies as 
they see fit or to make up contradictory policies. Amtrak and 
Jones Lang LaSalle have so far been unable to communicate the 
policy to their security employees. I believe Washington, 
D.C.'s train station deserves smart, well-trained, high quality 
security, and my experience with its representatives so far has 
been exceedingly disappointing.
    Curious about how other cities and stations handle 
photography, it took me 30 seconds on Google to come up with 
the policy at Grand Central Terminal at New York City. They 
post it right there on their Web site and they welcome 
photographers with open arms.
    It has taken over 6 months and dozens of conversations, not 
to mention a congressional hearing, to understand the policy at 
Union Station, and we still have no guarantee that when new 
guards or officers are hired they too won't automatically 
assume that a camera is a threat.
    My hope is that after today visitors to Union Station will 
be free to explore and photograph the building without being 
viewed as lawbreakers. Security officers and Amtrak employees 
should have more important things to do than investigate a 
tourist with a camera.
    Thank you.
    Ms. Norton. Well, I am a Member of the Homeland Security 
Committee, and the notion that security guards in a facility 
like Union Station are busy keeping track of a photographer 
rather than trained the way the airlines are training people to 
spot those who may do us some damage is very distressing to 
hear. But what is most distressing is to hear that you were 
stopped twice, according to your testimony, in the last 3 
months in public areas of the station.
    Where were you?
    Ms. McCann. The first incident was on, let me find my 
actual timeline here, was in the beginning--middle of May, May 
14. This was after the NPR photographer was stopped and 
threatened with arrest.
    Ms. Norton. The NPR photographers, do you know about that?
    Ms. McCann. Yes.
    Ms. Norton. Would you tell us about the NPR photographers?
    Ms. McCann. Do you want me to do that first, and then tell 
you my incidents?
    Ms. Norton. Either way.
    Ms. McCann. The NPR photographer, he was there as a private 
citizen. He just happens to work for NPR. He was using a tripod 
in the Great Hall. And as far as I have been able to tell from 
Jones Lang LaSalle, tripod use is actually prohibited.
    But once that issue was cleared up, he had I think four 
separate security officers telling him conflicting statements 
about why exactly he couldn't take photos. One said that it was 
the tripod. One said it was the camera. Two or three of them 
threatened him with arrest. I have a summary of the incident on 
page 8 of my testimony, and it also includes a link to him.
    Ms. Norton. Were those threatening with arrest security 
officers or peace officers?
    Ms. McCann. They were the ITC, the private security 
officers contracted by Jones Lang LaSalle. So I read his post 
and his account, and having spent several months and knowing at 
least as far as management told me that photography was allowed 
and knowing that security----
    Ms. Norton. How did management relay to you that 
photography was allowed? Was it in writing?
    Ms. McCann. Yes. I got an e-mail from Joan Malkowski, who 
is the Vice President for Union Station, from Jones Lang 
LaSalle in I believe February. She said, "In general, we do 
allow individuals to take pictures for their personal, 
noncommercial use. However, from time to time it is necessary 
to prohibit photography, depending on the situation." Then she 
went on to say that using a tripod or taking professional 
pictures without the express written permission of Union 
Station management is prohibited.
    What happened was they posted these signs around the 
station forbidding tripod photography. My understanding is that 
security guards read those signs and interpreted them to mean 
that all photography was prohibited.
    Ms. Norton. The security officers read what signs?
    Ms. McCann. Jones Lang LaSalle posted some prohibitions 
around the station. It was things like no running, no 
skateboarding. And at the very bottom of those things they 
prohibit in the station they include tripod photography or 
taking professional pictures. These signs went up after I first 
contacted Jones Lang LaSalle. I think they went up late March 
or early April. They are unclear on the rights of private 
photographers to take snapshots or artistic photos or anything 
at all. The only thing that they prohibited was professional 
photography.
    Ms. Norton. Are you talking about the list, the 18 
prohibited uses?
    Ms. McCann. Yes, and I think tripod photography you see 
there is 17 or 18 on that list.
    Ms. Norton. On that list, of course, it goes on to say 
"Union Station reserves the right to prohibit photography of 
any kind, in their sole discretion."
    Ms. McCann. Yes. That is where the confusion comes in.
    Ms. Norton. The confusion, who wouldn't be confused about 
it are the courts of the United States of America. This is a 
public space, then you go from tripods, and, by the way, at our 
discretion, whenever we feel like it, we can just, without 
giving any indication of what kind of photography we are 
talking about? This is pathetic.
    The timeline that you laid out I think sends the message to 
Union Station, you don't know who you are fooling with. These 
are very serious, educated people, and that is why I put her 
on. They are not simply reporting by hearsay. They have written 
evidence of their own. They have your written evidence and you 
are continuing to see these issues. Now, the next thing that is 
going to happen is a lawsuit.
    Ms. McCann. May I tell you about my specific two incidents? 
The first came after the NPR photographer was stopped when I 
was standing there with my camera, this is the camera that I 
carry around. It has a very large lens on it. It is not a 
professional camera. One of the guards who stopped me told me 
that my camera was too professional.
    Ms. Norton. What is a professional camera? You are a 
photographer. What is a professional camera?
    Ms. McCann. I am unclear on that. I know at one point I 
asked, after a security guard told me my camera was too 
professional, I asked Joan Malkowski if they were going to 
distribute a list of specific cameras and lenses that were 
allowed and were not allowed if that was the argument they were 
going to make. And the guard that I spoke with that night, he 
was very polite, but he was confused. He had gotten conflicting 
information from me and from his superiors, and he just didn't 
know.
    So, that night I told him that I had been talking with Joan 
Malkowski, and he tried to call her to get some background 
information. He couldn't get in touch with her. She already 
left for the day. He told me that because I could say her full 
name and had clearly had some sort of interaction with her, he 
would let me shoot that night. It was him and another guard. 
And I got the impression if I hadn't dropped her name, I know I 
would not have been allowed to take a photo that night. And I 
was very upset when I left, because it wasn't about me, it was 
about making sure this didn't happen to someone who hadn't 
spent 6 months e-mailing management to try to get an answer.
    The most recent incident that I encountered was last 
Friday, and that was when I was standing in the Amtrak area, 
and a woman at the Amtrak security kiosk, as soon as I pulled 
my camera out at 6:45 in the morning, the woman at the Amtrak 
security kiosk told me I had to put it away.
    She said Amtrak is private property. I was not allowed to 
take any photos anywhere in the building. She was speaking for 
the Amtrak area and the Jones Lang LaSalle area. She said no 
photography whatsoever anywhere in the building.
    I asked her for her name. She was standing there with a 
name tag at the Amtrak security kiosk. She turned her name tag 
around and told me she did not have to give me her name. A 
police officer, a uniformed Amtrak security officer came up 
next to her, and took me aside and I chatted with him. I gave 
him some of the background.
    He called his supervisor, who told him that yes, I am 
allowed to take photographs. I asked that officer what happens 
when I leave, somebody else comes up and the woman who refused 
to give her name interacts with another photographer or a 
family of tourists just arriving down from New York on the 
northeast regional train and are told to put their camera away?
    This happens all the time. It depends on what guard is 
there, who is working, what their impression of the policy is, 
in Amtrak or the Jones Lang LaSalle area. They are just making 
it up on the spot.
    Ms. Norton. Your testimony concerning the guard, they are 
the outward and visible sign of an outrageously pathetic 
policy. They are carrying out a non-policy. They are doing 
whatever they feel like doing. It raises very serious questions 
about their training, and all of this goes back to the 
management. People do what you tell them to do, what you train 
them to do.
    Do you believe that there is any new signage in Union 
Station that clarifies the policy on photography or public 
access?
    Ms. McCann. Absolutely not. Right now the signs, when you 
enter the buildings there are actually old signs that actually 
say "no photography allowed." The Amtrak security officer I 
spoke with on Friday, he referred to them as the old signs. He 
also said that----
    Ms. Norton. He said what? I am sorry?
    Ms. McCann. The signs on the outside of the door----
    Ms. Norton. How are those signs mounted?
    Ms. McCann. I believe they are actually painted on the 
glass.
    Ms. Norton. So painted on the glass is the words "Union 
Station is private property"?
    Ms. McCann. I don't know if it actually says that. It does 
say photography is not allowed. But he told me that since he 
had been working there----
    Ms. Norton. Otherwise known as written in stone.
    Ms. McCann. Right. He told me that when he first started 
working there, and his name tag said that he had been working 
there since 2007, that when he first started, that photography 
was not allowed anywhere in the station. His understanding was 
that it had been prohibited for a very long time and had only 
recently been allowed. So nobody quite knows when it was 
allowed and when it wasn't allowed. But the signs on the 
outside of the station do say prohibited and then the Jones 
Lang LaSalle signs that are put up say that it is private 
property, they reserve the right to restrict photography, no 
tripods, those signs.
    So right now there is absolutely no clear indication 
anywhere in the building that photography is allowed. When a 
photographer is stopped and they are asked--and they ask, you 
know, where is this posted, security guards, at least the Jones 
Lang LaSalle ITC security guards generally refer to the posted 
signs saying "we reserve the right to prohibit photography."
    Another photographer that I have spoken with in the last 
couple of weeks was stopped in the Amtrak area and was told 
that he--he was told that the whole building is private 
property and no photography allowed. He asked for a list of 
station rules and two Amtrak officers refused to give them to 
him and one referred to the no photography rule as being an 
unwritten rule.
    So right now people are stopped and they have nowhere to 
go, because the management who are actually in the building and 
the people they will refer you to will tell you that no 
photography is allowed.
    When I first started making calls to Amtrak, the first 
three or four people I spoke with told me photography wasn't 
allowed. It was after I sort of became very upset and made a 
pain of myself after learning about the Amtrak photography 
contest that I finally asked to be transferred to somebody in 
the corporate relations office who could explain it to me. She 
told me that it appeared that the security, the Union Station 
station manager and other people in the station were taking a 
policy set up for news photography and applying it for all 
photography.
    What it is for news photography, if you wanted to do a news 
story and go down on the tracks and get photos or video of the 
train arriving, you do need an Amtrak escort as far as their 
policy is concerned. But, again, employees are seeing this 
policy for news or professional photographer and they are 
applying it to anybody with a camera.
    Tourists have been stopped. I have been stopped. I don't 
really make a distinction between myself and a tourist. They 
don't know that I live in D.C. when they are telling me I can't 
photograph. Everybody there sort of makes up the policy on the 
spot.
    Ms. Norton. Ms. McCann, these intrusions into what would be 
considered even in many private facilities ordinary kinds of 
actions are particularly troubling to me as a public official 
and someone who had some experience as a lawyer in first 
amendment matters, who taught labor law where the notion of 
what is a public place and what is a private place comes up all 
the time, and where the courts have been clear about the 
importance of the first amendment. Of course, the first 
amendment could not be more important in a facility owned by 
the people of the United States of America.
    I have put you on first because I thought that Union 
Station leaders should have the opportunity to hear directly 
and it should not be a matter of my hearsay, that they should 
hear directly the complaints that have come so they could 
respond. The reason I thought I had to do that is that Union 
Station has repeatedly said that it does not bar photography. 
So while I did not know what your testimony would say, the fact 
that you have taken the trouble to go through a timeline to 
indicate precisely when you or others encountered, and 
particularly you, because you have been real clear about your 
own experience, encountered these violations of policy, this is 
only fair so that Union Station, perhaps they don't know. In 
law we have a notion know or should have known, but perhaps 
they don't know. At this hearing, if they didn't know, they 
found out, and they found out I think thanks to you and to what 
is really very closely written and documented testimony.
    Now, if it is not true, Union Station can come forward and 
say it is not true. But in any case, they are certainly going 
to have to respond.
    As a Member of Congress who represents this city, I want to 
offer my apologies to the amateur photographers who have 
experienced this treatment in a facility that enjoys the 
patronage of the Congress of the United States through funding. 
We are having this hearing obviously not only because of your 
complaints, but because we haven't had a hearing on Union 
Station, and when you leave people on their own for decades 
then they develop their own policies. That ceased today.
    I thank you very much, Ms. McCann, for your testimony.
    Ms. McCann. Thank you.
    Ms. Norton. Could we ask the President of the Union Station 
Development Corporation to come forward, David Ball; the 
Assistant General Manager of Jones Lang LaSalle, Incorporated, 
Bryant Chambers; and the Counsel for the acquisition company, 
Ashkenazy Acquisition Corporation, Daniel Levy.
    Why don't you begin, Mr. Ball?

TESTIMONY OF DAVID BALL, PRESIDENT, UNION STATION REDEVELOPMENT 
CORPORATION; BRYANT CHAMBERS, ASSISTANT GENERAL MANAGER, JONES 
  LANG LaSALLE, INC.; AND DANIEL LEVY, COUNSEL FROM KRISS AND 
      FEUERSTEIN L.L.P., ASHKENAZY ACQUISITION CORPORATION

    Mr. Ball. Good morning, Chairwoman Norton, Ranking Members 
and Members of the Subcommittee. I am David Ball, President of 
Union Station Redevelopment Corporation, or USRC. I am very 
pleased to be here this morning on behalf of USRC to testify 
about management at Union Station, its intermodal uses, and 
other important matters concerning the care and custody of 
Washington's Union Station that has been entrusted with USRC. I 
also would thank Ms. McCann for her testimony this morning.
    USRC is a small office and we serve as the trustees for 
this public building that is privately held.
    First and foremost, Union Station is a train station and a 
retail success for Washington, D.C. It is Washington's 
intermodal transportation facility serving MARC, VRE, Amtrak, 
WMATA buses and Metrorail. On an average day, there are over 
1,200 taxi pickups and most likely an equal number of taxi 
discharges at the station. About 12,000 tour buses a year park 
in the garage and over 32 million people a year go in and out 
of this station.
    In 2005, USRC obtained a $38 million construction bank loan 
to expand the capacity of the parking garage. In expanding the 
garage, we are also created a separate area for rental cars 
that allowed USRC to create the bus decks for buses only.
    USRC is required to accommodate several parking market 
segments in the garage due to existing contractual 
relationships. Part of what we need to do is make available 600 
conveniently located spaces for the retail use to provide a 
parking validation program. We allowed the developer 75 spaces 
for rental car parking and established a fee structure that 
discourages long-term parking and encourages prompt turnaround. 
These policies coexist with the requirement to make parking 
available to Amtrak travelers. As to the parking garage that 
has a capacity of about 600 cars, it normally reaches capacity 
by 7:30 in the morning with Amtrak travelers.
    Not unlike our station retail parking, whom we will hear 
from later today at USI, who is attempting to create the right 
mix of retail venues with their exciting redevelopment plans 
for the station, USRC must work to identify the users of the 
bus deck that will allow the station to maximize its intermodal 
transportation possibilities.
    On the bus deck, we work to accommodate the local and out-
of-state tour buses, the D.C. Circulator, FlexCars and WMATA. 
We are in the early discussions with Greyhound concerning their 
proposed tenancy at Union Station, the number of buses 
required, the passenger express services, any boarding-waiting 
area issues, along with security concerns at the station. 
Greyhound, USI, Amtrak and USRC all must reach an agreement on 
the use issues, as well as the economics of the deal.
    We have had discussions with the team from the Capital 
District Center concerning parking Capitol Hill's tour buses at 
Union Station to help facilities visitors to the Capitol 
building. We have also talked about running a shuttle bus from 
Union Station to the Hill.
    At the city's request, we provide in and out services for 
tour buses that work with the city on a master plan for tour 
bus parking. We have had early discussions with Akridge on how 
best to maximize the use of the bus deck in their proposed 
Burnham development plans. The garage cannot accommodate 
everyone's needs, so we look forward to the results of the ITC 
study to help us charter the Union Station position as the 
city's intermodal transportation facility.
    As noted in my written testimony, the success of Union 
Station is derived from the Union Station Redevelopment Act of 
1981, which was signed into law by President Reagan. Former 
Chairman of the House and Transportation Infrastructure and 
former Secretary of Transportation Norm Mineta was the sponsor 
and champion of the bill in the House. Without his efforts, 
there would have been no redevelopment act and there would be 
no money to complete the parking garage and there would not be 
a redevelopment project. The Secretary of Transportation then, 
Elizabeth Hanford Dole, secured the needed funding from Amtrak 
and agreed to work with USRC to select a developer.
    USRC is a nonprofit corporation and is governed by a board 
of directors that sets the policies for USRC. The current board 
consists of the Secretary of Transportation, the President of 
Amtrak, the Mayor of the City, the President of the Federal 
City Council, and the Federal Railroad Administrator.
    We are proud of what this intermodal transportation center 
has done for Capitol Hill and the city as a whole. A short list 
of contributions to the city are we brought commercial and 
office development to the area, the restoration of the Union 
Station complex increased neighborhood real estate values, 
Union Station now accounts for over 5,000 permanent jobs. In 
2004 Union Station generated $9.5 million worth of sales tax; 
in 2005, $9.9 million in sales tax; 2006, $10.6 million; and in 
2007, about $10.7 million in sales tax for the city. Union 
Station is a revenue generator for the city.
    In closing, I am compelled to let you all know about the 
proposed threat by the District of Columbia's Possessory 
Interest Tax to Washington's Union Station and its continued 
viability. In my written testimony, I provided information that 
I have given before the City Council on our concerns with the 
PIT.
    I see my time is up. At this point Chairman Norton and 
Members of the Committee, I want to thank you again for the 
opportunity to speak before you today on behalf of Union 
Station. I would be pleased to answer any questions you may 
have.
    Ms. Norton. Thank you very much, Mr. Ball.
    Mr. Chambers.
    Mr. Chambers. Good morning, Chairwoman Norton, Members of 
the Subcommittee. My name is Bryant Chambers. I am the 
Assistant General Manager for Jones Lang LaSalle at Union 
Station, and I would like to thank you for this opportunity to 
testify on behalf of them about the management of Union Station 
in particular.
    Union Station is one the most successful public-private 
partnerships in the history of the United States. In 1985, the 
U.S. Government, acting through the Secretary of 
Transportation, leased the property to Union Station 
Redevelopment Corporation, USRC, a nonprofit District of 
Columbia corporation formed to redevelop Union Station under a 
ground lease. In turn, USRC subleased Union Station to Union 
Station Invesco, LLC, known as USI.
    In the United States, Jones Lang LaSalle Retail is the 
largest third party regional shopping center manager, with a 50 
million square foot portfolio of more than 100 regional malls, 
strip centers, power centers, lifestyle centers, ground-up 
development projects, mixed use centers, and transportation 
terminals across 28 States.
    Jones Lang LaSalle, the only real estate money management 
and service firm named in Forbes magazine's 400 best big 
companies for 3 consecutive years, has a portfolio of 1.2 
billion square feet of property under management worldwide, 
including more than 10,000 retail locations on four continents.
    In 1986, Jones Lang LaSalle was awarded the development 
management of Union Station. As a result, over 120 stores, 
restaurants and a cinema were constructed, providing over 
213,000 square feet of retail space to Union Station.
    Today at Union Station, and since the grand opening in 
1988, Jones Lang LaSalle has managed the asset for our clients. 
In 2007, the leasehold interest was purchased by Union Station 
Invesco, LLC, who retained Jones Lang LaSalle's management 
services. Our role as a management firm includes client 
accounting, financial services, skilled management and 
marketing services.
    In general, we oversee all contractor services at Union 
Station. That includes security, cleaning and repairs, and 
maintenance. Public events at Union Station are coordinated 
through our office as well. We establish annual capital plans 
for building improvements and repairs throughout the Station 
and execute these plans when approved by ownership, USI and 
USRC. In addition, tenant coordination for build-outs and 
remodels is the responsibility of our management team.
    Union Station is the national headquarters for Amtrak, as 
earlier stated, and Amtrak leases 106,200 square feet of office 
space and 63,800 square feet of operation space for waiting 
rooms and customer services and ticket services.
    Also, Union Station is the hub for the MARC train, which is 
the Maryland Rail Commuter Train, and the VRE, the Virginia 
Railway Express, and the most heavily traveled stop on the 
Metro system.
    There are now over 130 merchants in Union Station. The 
property enjoys high sales performance and is one of the most 
visited sites in Washington, D.C. Over 32 million visitors pass 
through Union Station annually. Union Station serves as the 
venue for special events, including inaugural balls, art 
exhibits, concerts and other events that draw patrons to the 
Station.
    In 2007, Union Station restaurant operators and merchants 
contributed approximately $10,631,100 in sales tax to the 
District of Columbia. USI, through management agreements and 
contracts for cleaning and security services, employs 
approximately 124 employees.
    Union Station ownership has cooperated with the city on 
transportation and logistics, and city Metro buses will drop 
off and pick up passengers in front of Union Station when the 
Columbus Plaza is complete. Also, a bicycle center will be 
located at the Station and the city will pay no rent for the 
premises due to the service it provides the citizens and 
patrons.
    We actively participate as members of the Capitol Hill 
Business Improvement District, and the General Manager serves 
on the Board of Directors as an executive committee member.
    Union Station is an active member in the Capitol Hill 
Merchants Association, and Union Station is a member of the 
Guild of Professional Tour Guides of Washington, DC.
    We participate in the annual "ask me about Washington" 
function in conjunction with the D.C. Chamber of Commerce. We 
assist the Mayor's office, working with the D.C. Film 
Commission, to increase awareness of Washington, D.C. and Union 
Station through films such as "Along Came a Spider" and 
"Wedding Crashers."
    Union Station is an active member of the Washington 
Convention and Tourism Corporation, recently rebranded 
Destination D.C., to ensure that millions of regional, domestic 
and international tourists know about the cultural diversity 
and wealth of shopping and dining opportunities the city 
affords them.
    At this time, I am available for any questions that you may 
have.
    Ms. Norton. Thank you very much, Mr. Chambers.
    Mr. Levy.
    Mr. Levy. Chairwoman Norton and the Members of the 
Subcommittee, I thank you for the opportunity to speak before 
you today on behalf of Union Station Invesco, LLC, relating to 
the team behind Union Station Invesco, the operation and 
management of Union Station, its plans for the future of Union 
Station, and assessment of District of Columbia's Possessory 
Interest Tax on Union Station and its likely effects.
    Union Station Invesco, LLC, an entity of Ben Ashkenazy, was 
the recent purchaser of the leasehold interest in Union 
Station. With over 20 years of experience in real estate and as 
chairman and CEO of Ashkenazy Acquisition Corp, he leads the 
company's vision, and under his stewardship the firm has 
developed into one of the leading real estate investors and 
operators in the United States.
    Headquartered in New York City, Ashkenazy Acquisition 
Corporation is a private real estate investment firm focusing 
on retail and office assets. With more than 70 properties, AAC 
has superior performance history in purchasing and managing 
premier assets. AAC has acquired over 13 million square feet of 
retail, office and residential properties located throughout 
the United States and Canada, some of which have been included 
in my written testimony.
    Bryant spoke to the specifics of the ownership structure, 
so, very generally, on January 25, 2007, Union Station Invesco 
acquired the leasehold interest from Union Station Venture II, 
LLC. Prior to the date of closing, AAC was selected as 
purchaser by USV and was approved by the USRC to acquire the 
leasehold interests.
    USI leases and operates certain parts of Union Station, and 
in turn has multiple retail sub-subleases with individual 
owners of over 120 stores and restaurants occupying Union 
Station, as well as a sub-sublease with Amtrak for offices and 
railroad operations.
    Jones Lang LaSalle is currently engaged by USI to serve as 
development manager and property agent. Jones Lang LaSalle has 
been involved with Union Station for the past 20 years and has 
been largely responsible for the revitalization of Union 
Station.
    Union Station is not only a historical landmark but an 
architectural gem. One of USI's goals is to enhance the 
functionality of the station while keeping the original concept 
of a major intermodal transportation hub. The project will 
reorganize pedestrian traffic flows to make the station more 
navigable and ease congestion. Directional signage and 
information screens will be added throughout the station.
    Attached is Exhibit A to my written testimony and, as I 
will address, are some of initiatives USI intends to undertake.
    With the proposed addition of Greyhound Lines, Inc. Union 
Station will further diversify the transportation option to its 
visitors. Greyhound cuing would be accessed by a new mezzanine 
deck directly connected to the parking garage along with rental 
cars and other travel services. All Greyhound amenities would 
be on the same level. The train concourse will be structured to 
intuitively streamline the congestion around waiting areas, cue 
areas and walkways.
    In conjunction with the District of Columbia Department of 
Transportation, a new bicycle transit center will be installed 
at the west end of the property. The new bicycle center is 
being built to provide convenience and access to commuters and 
visitors alike wishing to travel within the city by bicycle.
    USI and its architects continually work with the USRC, 
Amtrak and Akridge to improve Union Station and for the 
addition of Burnham Place, which will be developed utilizing 
the air rights located over the train tracks at Union Station.
    Additional improvements being undertaken in conjunction 
with Amtrak and the USRC are the installation of security 
bollards around the perimeter of the premises.
    Finally USRC is in agreement with the National Park 
Service, District of Columbia, and USRC for the enhancements to 
be made to Columbus Plaza adjacent to Union Station. At part of 
the overall improvement project, city metro buses will have a 
convenient location front and center for passengers boarding 
and drop-off.
    As David briefly mentioned in his written testimony, I also 
feel compelled to briefly discuss and call to your attention 
the possessory interest tax. The District of Columbia's 
possessory interest tax legislation is the largest threat to 
the future success of Union Station and has the potential to 
unwind two decades of revitalization. The success of Union 
Station as an intermodal transportation facility is based on a 
careful and strategic balance of budgeting for ever-growing 
costs of maintaining, securing and operating the century old 
national landmark, preserving the crucial tenant mix at Union 
Station and the cost to improve Union Station as an intermodal 
transportation facility. USI has been working with the District 
of Columbia City Council and has appealed to the Board of Real 
Property Assessment and Appeals to save Union Station from the 
inevitable downward spiral it may experience as a result of the 
PIT assessment.
    However, fearing the worse and without some kind of relief 
it is unlikely that USI will be able to pay that amount 
together with all of the other increased operating costs, 
security costs and improvements that are required to maintain 
and improve Union Station as an intermodal transportation 
facility.
    Chairwoman Norton and the Members of the Subcommittee, I 
thank you again for the opportunity to speak before you and 
would be happy to answer any questions you may have.
    Ms. Norton. While it is fresh in your mind, let me ask each 
of you to respond to the testimony of Ms. McCann.
    What is your reaction to her testimony?
    Mr. Ball.
    Mr. Ball. I guess basically I am just embarrassed that we 
don't have a standard policy that people in general understand 
how to go through the process. I don't think it is a hard 
policy to identify. I do know, over the years, we have gone 
back and forth in terms of what is required for a person to 
take pictures. After 9/11, we have gone through different 
reiterations of how security should be done while people are 
taking pictures. It seems like a very simple matter. I talked 
to Joan Malkowski. She believes that she has given out the 
right answer.
    Ms. Norton. I am sorry, who?
    Mr. Ball. Joan Malkowski, the vice president of Jones Lang 
LaSalle, the general manager whom Ms. McCann spoke about in her 
statement.
    Ms. Norton. So if you get to the right official, you might 
be okay.
    Mr. Ball. Yeah, you might be okay.
    As in any building, like I said, there is over 5,000 people 
that work in the station in the course of a business day, and 
you may get many different answers on any issue at a given 
time.
    But that is not an excuse. If there are signs up there that 
are old or whatever, those signs need to be replaced. And I 
think, I have talked to Bryant, I don't think that it is a hard 
policy to sort of figure out exactly what is required. I don't 
set that policy, but I am very certain that, between Bryant and 
Daniel, they can probably get a clear answer, and each may go 
to a Web page and find out what information you need. At that 
point, I will leave it to these gentlemen.
    Ms. Norton. Well, first of all, Mr. Levy, you are counsel, 
is that right?
    Mr. Levy. That is correct.
    Ms. Norton. Has this matter ever been, the matter of 
photography, ever been formally presented to you, and what is 
your legal opinion, sir?
    Mr. Levy. It has never been formally presented to me as an 
issue.
    Ms. Norton. So what are you there for?
    Mr. Levy. Excuse me?
    Ms. Norton. What are you there for? You are the counsel.
    Mr. Levy. Why am I here?
    Ms. Norton. You are listed as counsel.
    Mr. Levy. That is correct.
    Ms. Norton. If not to you, then to whom?
    Are you a lawyer, Mr. Ball.
    Mr. Ball. No, Ms. Norton I am not.
    Ms. Norton. Are you a lawyer Mr. Chambers?
    Mr. Chambers. No, Chairwoman.
    Ms. Norton. Mr. Levy.
    Mr. Levy. If you are asking for my legal opinion, I can 
give you my legal opinion. My legal opinion is that, yes, the 
building is owned by the Federal Government. However, they 
conveyed a leasehold interest to Union Station and in turn--to 
the USRC, and in turn the USRC conveyed a leasehold interest to 
us.
    Ms. Norton. So your testimony is that because we leased the 
building--you may want to finish that sentence. Because the 
Federal Government leased, who owns the building, leased it to 
a private party, fill in the blank, sir.
    Mr. Levy. I am not entirely sure what you are asking me.
    Ms. Norton. Well, you know----
    Mr. Levy. Are you asking me whether it is a public or 
private building?
    Ms. Norton. Well, Mr. Levy, you are the counsel. You say 
you have never been consulted on this policy. Don't you see why 
there is confusion here?
    Mr. Levy. I mean, I would just like to call your attention 
to the fact that we recently acquired the leasehold interest in 
Union Station.
    Ms. Norton. When did you acquire the leasehold?
    Mr. Levy. In January of last year.
    Ms. Norton. How long have you been counsel?
    Mr. Levy. Since about that time.
    Ms. Norton. Did you hear Ms. McCann speak of very recent 
contradictory guidance and incidents brought to the attention 
of management? Is that enough time for you to have moved 
forward with a policy?
    Mr. Levy. It is certainly a problem that needs to be 
addressed.
    Ms. Norton. Mr. Chambers.
    Mr. Chambers. I would actually like to address several of 
the comments that were made in the testimony.
    As someone more on the ground, I think I have a little bit 
more comprehensive information that may make this--we--
actually, I was aware of the e-mails that were being sent back 
and forth by Mrs. McCann. And she is correct in stating that 
there was confusion. And I also speak on behalf of IPC Security 
that we hired to provide the security for the building. She is 
right in stating that there was confusion and that there were 
standards that were improperly, if not inconsistently, enforced 
throughout the building.
    I have actually taken proactive steps to combat those 
issues in the station. Number one, I would like to state that I 
was not aware of her most recent issues that she has had with 
the Amtrak security. I am not able to speak on behalf of Amtrak 
security, but for the purpose of this meeting, that will be 
followed up. We actually sit, Mr. Ball and I sit on a committee 
with all the stakeholders in the building.
    Ms. Norton. And of course, Amtrak is on the same board----
    Mr. Chambers. Yes, that is correct.
    Ms. Norton. --with everybody else?
    Mr. Chambers. So I will personally follow up the issue with 
them.
    Ms. Norton. I am not trying to----
    Mr. Chambers. Now, in----
    Ms. Norton. Go ahead.
    Mr. Chambers. In reference to the standard being unclear, I 
have actually redrafted the standard, which is why I am 
probably a little bit more qualified to address that to make it 
more clear, to make it understood, that photography is most 
certainly welcome inside the building.
    Ms. Norton. Mr. Chambers, you indicated you were not a 
lawyer?
    Mr. Chambers. That is correct.
    Ms. Norton. Mr. Levy is a lawyer. I am not sure Mr. Levy 
would feel competent to draft a policy. And I say this only 
because this is a public-private facility. I don't know if you 
are aware of the NLRB cases, but the case law is replete with 
mall cases, for example, where First Amendment rights were 
upheld in what looks to be entirely private space, sir, unions 
being allowed to picket and the First Amendment being cited as 
well as the National Labor Relations Act. So the reason I bring 
this to your attention--in fact, let me say what I appreciate. 
See, what I didn't appreciate was reiteration of the policy 
that, well, we let cameras in here, what is wrong with these 
fools, when in fact we continue to get reports. That is what I 
didn't appreciate.
    All I ask those who come before us to do is to indicate 
that they will in fact respond accordingly. That is really--I 
am not asking you to go through the process here now. So I am 
going to ask the three of you together to get at least the 
outline of--this is a difficult issue, but not nearly as 
difficult as you think--get the outlines of the policy for 
photography in Union Station where it will be posted. I am 
going ask you to give that to outside counsel, meaning somebody 
who has perhaps practiced before the Supreme Court or before 
the Federal Courts and is familiar with the unbroken line of 
cases about; one, public access, and two, First Amendment 
rights.
    This is quite a special field that, Mr. Levy, I don't 
expect you to be an expert in every field of law, but I do 
expect that any legal opinion will exercise a presumption in 
favor of public access, which includes photographers. I am not 
even going to get into commercial versus noncommercial types of 
cameras because that is so pathetic that I don't think it 
deserves elaboration. There are narrow instances, the operative 
word is narrow, in which you can forbid property in a space 
leased by the United States Government. And if you don't 
believe me, sue me. But we are not going to sit here and have 
complaints come back and forth about this. And I ask you to, 30 
days, get us the outlines of a policy; within 60 days, get us a 
policy. We want to know where the policy will be posted, and 
let me move on, because photography was not meant to be the 
centerpiece of this at all. It is just the piece that most 
indicates that there may be problems at Union Station and that 
oversight is necessary.
    Mr. Ball, who is on the board of the corporation, the 
managing corporation?
    Mr. Ball. For USRC, it is the U.S. Secretary of 
Transportation, Ms. Peters; President of Amtrak, Mr. Kummant is 
on board; Mayor of the City; President of Federal City Council 
represented by Edmond Cronin, who is President of the 
Washington Real Estate Investment Trust; and the Federal 
Railroad Administrator. We have a five-board member panel--
five-board panel.
    Ms. Norton. What was the last one?
    Mr. Ball. Administrator of the Federal Railroad 
Administration.
    Ms. Norton. Mr. Ball, you have just given the names of--was 
it five people?
    Mr. Ball. Yes.
    Ms. Norton. Four of whom are public officials.
    Mr. Levy, I ask you to keep that in mind when you cite the 
leasehold. The board is governed almost exclusively by public 
officials in this legislation long before I got here 
reinforcing congressional intent about this facility. We are 
very appreciative of the public-private nature of this 
facility. But, of course, I think most of us would have 
difficulties with this notice at Union Station that Channel 5 
delivered to us: Union Station is private property. The 
following depicts the rules of conduct for Union Station.
    Who is responsible for drafting this document, Mr. Levy?
    Mr. Levy. I think it preceded our purchase of Union 
Station.
    Ms. Norton. Have you--when you take over a business, you 
don't look at all their documents, particularly when the 
business is governed by Federal law, to see if you are in 
compliance?
    Mr. Levy. We do, however this isn't your typical shopping 
mall.
    Ms. Norton. This is what?
    Mr. Levy. This is not your typical shopping mall or 
commercial property where you have----
    Ms. Norton. All the more reason for you to look closely at 
your obligation.
    Mr. Levy. I agree.
    Ms. Norton. You just heard me list four out of the five 
members being public officials. Why do you think Congress did 
that?
    Mr. Levy, the notion that this isn't an ordinary shopping 
mall, I also commend you to the ordinary shopping malls in 
which the courts, including the Supreme Courts, have said, you 
have got to let people picket in there and exercise their First 
Amendment rights in there. So you needn't cite this public-
private partnership when the law has even allowed, in many 
circumstances, not all, but many circumstances, the exercise of 
First Amendment rights in private mall spaces. That is why I 
say you need outside counsel on this important issue.
    Mr.--all three of you, perhaps. I don't know who can best 
answer this question. What is the long-term plan for Union 
Station? We understand that you are changing the mix of retail 
there, that there is, if anything, a wholesale makeover going 
on. The Committee is interested in the details of the makeover.
    Mr. Ball. Ms. Norton, I will start out.
    Union Station has probably had the same type of retail in 
it since it has opened up for the last 20 years. It is a 
customary practice in the shopping center business that every 
couple years, 15, 20 years, you sort of do a look at your 
inventory, look at the type of retail you have.
    Ms. Norton. I will just say, you are absolutely right that 
the----
    Mr. Ball. And make it competitive----
    Ms. Norton. You are absolutely right that--and we welcome 
anything you might do.
    Mr. Ball. So if you take a look at what has happened on 7th 
Street, even up in Chevy Chase, it is time for a remix to make 
a different set of--to revitalize the station a little bit, 
so----
    Ms. Norton. We don't object. You understand the basis for 
my question. I am asking you for details, far from saying there 
should not be changes. I am saying we are unaware of the 
changes, and therefore I am asking you for details concerning 
the change.
    Mr. Ball. Okay. Then I will probably need to let him speak 
because I can only paint a broad picture. I can talk about 
Union Station as a whole, in general. I can talk about the 
things we are trying to do in terms of the parking garage. The 
leasing responsibility goes over to USI. Our responsibility at 
USRC is to look at their plans and get them to through the 
Commissioner of Fine Arts. But if you want a detailed response, 
then I will have to leave that to the developer.
    Ms. Norton. Mr. Chambers.
    Mr. Chambers. Yes, ma'am.
    Ms. Norton. Have you any response to the details of the 
makeover?
    Mr. Chambers. We actually, as a management company, do not 
handle the leasing. I would have to defer to Mr. Levy.
    Ms. Norton. All right. Let us pass the buck down to Mr. 
Levy.
    Mr. Levy. Are you asking with respect to tenants or with 
respect to all types of improvements?
    Ms. Norton. Sir, I can only ask you a general question, 
because I have no idea what kind of makeover is intended, nor 
am I objecting to it. Mr. Ball was exactly right. I am a 
Washingtonian. They can't make over 7th Street fast enough for 
me. So that is not my issue. In fact, I have no issue. I seek 
information.
    Mr. Levy. Although unfinalized, the idea is to create a 
state-of-the-art intermodal transportation facility. One of 
those ideas--and if you look at--I don't know if you have my 
written testimony before you, but the back pamphlet, Exhibit A, 
will delineate some of those ideas. The main grasp of the 
improvements are to improve our congestion problem in Union 
Station, make the station more navigable. And if you would like 
to turn to it, if you have it, I am happy to go through some of 
them, or if you have any specific questions, I can fill them 
in.
    Ms. Norton. If you would summarize because those are 
interesting. And we are very pleased to have these pictures for 
the record. But some of these pictures go to things that can 
only be done when Akridge & Company get in there. And you are 
undertaking a makeover now, aren't you?
    Mr. Ball. Well, Ms.----
    Ms. Norton. Are you about to change in some ways the 
existing facility? That is what I am talking about. I am not 
talking about the facility somewhere down the line.
    Mr. Ball. I am not certain what you may have in your hand 
now, but I do know what I have seen so far of the plans shows 
some grand space in the station, the possibility of working 
with Amtrak because Amtrak has the area----
    Ms. Norton. So the new glass store fronts, for example, 
added to the back mezzanines.
    Mr. Ball. Right, those mezzanines, yes, those are some of 
the things that they talk about.
    Ms. Norton. Will that bring more retail, more stores?
    Mr. Ball. It actually will help circulation more. So it is 
not so much about getting more square footage. It is about 
having people move from one part of the building to the other.
    Ms. Norton. You can do that before----
    Mr. Ball. Well, Akridge is a separate issue. And their work 
is what their work is. We can still move in the station 
independently of their work, but we have talked to them because 
there will be some places where there can be an opportunity to 
have a joint connection between the two.
    Ms. Norton. Well, you have at the bottom Mr. Ashkenazy--I 
mean, the Ashkenazy Corporation. Please forgive me, I think I 
have called the corporation several different kinds of things. 
It says lower level looking up to street level, new retail 
spaces replace existing movie theater.
    Mr. Ball. Right. Well, movie theaters are basically losing 
money. They don't work in Union Station.
    Ms. Norton. For themselves, or for----
    Mr. Ball. Well, for the station in general. They don't pull 
the same type of crowd, because they don't pull the same type 
of crowd; you have the same number of people shopping the 
stores.
    Ms. Norton. So, in other words, we are not going to go to 
the movies at Union Station anymore. That I have no Federal 
jurisdiction over.
    Mr. Ball. I am a native Washingtonian, and I don't go there 
often either to the movies.
    Ms. Norton. Well, I do go because I live on Capitol Hill. 
So you don't intend to have other--you are going to have other 
retail there?
    Mr. Ball. I think for the developer, they are actually 
trying to figure out what is the best mix, what actually works 
at Union Station. How do you bring people back to Union 
Station?
    Ms. Norton. Do you have a consultant doing that sir?
    Mr. Ball. I don't have the consultant. That is the USI 
folks that have the retail responsibility.
    Ms. Norton. Who?
    Mr. Ball. Ashkenazy.
    Ms. Norton. Mr. Levy, who is doing this work?
    Mr. Levy. What is that?
    Ms. Norton. Obviously, you are doing some kind of market 
survey?
    Mr. Levy. That is right. And we do that in-house. That is 
what our business is, to evaluate----
    Ms. Norton. So what have you determined thus far?
    Mr. Levy. Well, thus far, what David spoke about, the 
feeders are underutilized and----
    Ms. Norton. So what kind of retail do you think, for 
example, in the basement might increase the utilization?
    Mr. Levy. I don't think the idea is to replace the tenant. 
I think, obviously, working with the Commission of Fine Arts it 
is to create a walkway that would allow more light in to our 
food court and maybe upgrade the food court and make it more 
inviting than it is right now.
    Ms. Norton. So you do anticipate food courts, food down 
where you have food now?
    Mr. Levy. Yeah. We do anticipate--yes, we do anticipate 
having that food court. The only change there would perhaps be 
creating a walkway downstairs under the center cafe.
    Ms. Norton. But the movie theaters wouldn't be there, so 
what would replace the movie theaters?
    Mr. Levy. Stairways, a walkway downstairs.
    Ms. Norton. Oh, goodness. So you are willing to give up 
whatever attraction they have and to simply replace it with 
infrastructure?
    Mr. Levy. Because the plus side after creating that kind of 
traffic may encourage our retailers and our food courts.
    Ms. Norton. Well, it is your business, so you must know 
what you are doing. But are you going to have the same food 
courts down there?
    Mr. Levy. Perhaps.
    Ms. Norton. I am going to go to the Ranking Member.
    Mr. Mica. Thank you.
    I have a few questions, and then you may have additional 
questions you seek answers for.
    Let me just get in time and space on the redevelopment 
project. Everything is in place to move forward with the 
additional development, the 3 million square feet, is that 
correct? Would Mr. Levy or Mr. Ball?
    Mr. Ball. That is a completely different project. What I 
believe you are referring to is the Akridge project----
    Mr. Mica. Where is that?
    Mr. Ball. That is over top the air rights. That is between 
the Union Station parking garage and the FCC building.
    Mr. Mica. Is everything in place for that?
    Mr. Ball. I can't answer that question. That is Mr. Levy.
    Mr. Mica. You are not involved. You are just involved in 
the current management?
    Mr. Levy. Correct.
    Mr. Ball. And these are actually physically separated parts 
that the developers have to work together to determine how best 
to connect in certain areas, how best to get the right synergy 
between the two projects. They are separate entities, but we do 
communicate with the development partners.
    Mr. Mica. It is going to be part and parcel though to the 
existing station?
    Mr. Ball. It will be connected because we have negotiated 
access between the two properties, so they will----
    Mr. Mica. Is that the property that would have the 
Greyhound facility?
    Mr. Ball. Currently Greyhound has had discussions with USRC 
as well as USI. Greyhound would like their presence to be 
inside of Union Station. The Ashkenazy Group has taken a look 
and has identified the possibility of creating a mezzanine 
space in what is Amtrak's current waiting area, a mezzanine 
space above the Amtrak's waiting area to house a Greyhound 
ticket counter there.
    Mr. Mica. So it is not in then this new 3 million square 
foot addition, or is it? Would it be? We don't know?
    Mr. Ball. That is the best answer, yeah. We have identified 
the possibility of it being within Union Station. Again, you 
know, they can park buses in the Union Station parking garage. 
They could possibly have a ticket counter within the station.
    Mr. Mica. I couldn't imagine a 3 million square foot 
addition to not be interconnected to the current Amtrak 
facility. But you are saying there will be that connection, 
right?
    Mr. Ball. They are separate entities, correct, yeah.
    Mr. Mica. I know that, but the question----
    Mr. Ball. It is almost like if you are a city block and you 
have two office buildings side by side. They may have a 
connected atrium; they may not. At this point, I think the 
plans, some are still fluid. And both developers, the Akridge 
developer as well as the Ashkenazy developer, have talked.
    Mr. Mica. Again, it will enhance the Amtrak project to be 
interconnected with the new project. Wouldn't it be a benefit 
to both?
    Mr. Ball. I am not a developer. Yes, it could be.
    Mr. Mica. Pardon?
    Mr. Ball. Yes, it could be.
    Well, some deals with, in terms of when you take a look at 
the property, some of the elevations don't line up. There are 
different elevations in terms of where access points are, 
physical impediments inside. So those are some engineering 
details that really need to be taken a look at. In concept, 
everything seems to be very good.
    Mr. Mica. Well, again, to me, it would--the air space is 
being--who is granting the air space lease? Is that you all or 
the Federal Government or who, Amtrak?
    Mr. Ball. Federal Government, if I understand your question 
right. Akridge has purchased air rights from the Federal 
Government.
    Mr. Mica. I can't imagine anyone allowing a development of 
that not to be accessible to your existing----
    Mr. Ball. There is a connection between the Akridge air 
space and the Union Station project.
    Mr. Mica. Well, again, to me, in our interest, I mean--and 
we are giving--if the Federal Government has title to this 
property, why you wouldn't have a new 3 million square foot 
complex interconnected or inter accessible that would make it 
accessible to both, I just can't imagine that. But I guess 
every day you get surprised around here.
    The improvements that you are talking about at Union 
Station, first of all, okay, you are operating the station, 
right, Mr. Levy?
    Mr. Levy. Well, yes, we are managing and operating, along 
with JLL.
    Mr. Mica. Okay. And the corporation stills owns it, and 
they are the people that are actually doing the administration 
of the leases, et cetera, deciding future uses?
    Mr. Levy. Yes.
    Mr. Mica. The current Union Station development 
corporation, are they showing a profit or annual--what is their 
bottom line at the end of the last few years?
    Mr. Ball. USRC is a nonprofit corporation.
    Mr. Mica. I know, but you either make money or you lose 
money.
    Mr. Ball. No, we make money by the lease structure.
    Mr. Mica. You do?
    Mr. Ball. Yes, we do.
    Mr. Mica. Is that the money you are pouring back into these 
improvements that have been described, that the Chair showed 
for new ticket counters, for the bike racks, for the food 
courts, are you pouring that money back in?
    Mr. Ball. No, we are not. I mean, the way the lease is 
structured----
    Mr. Mica. They do it.
    Mr. Ball. Yes, they do it. We have some capital 
responsibilities as USRC. We have the responsibility to make 
certain that the historical integrity of the building is 
maintained.
    Mr. Mica. So you are doing the bike stuff and all of that?
    Mr. Ball. The bike stuff is being done by the District of 
Columbia Government with some financial support by USRC.
    Mr. Mica. I am a has-been developer, but I looked at your 
bike racks there, and it looks like a nice--I can't tell 
whether that is glass or some sort of awning cover.
    Mr. Levy. It is glass enclosed.
    Mr. Mica. Yeah, that will look like crap in a little while. 
I would go back and--you have a historic building, and if you 
build a bike rack, build something that goes with the building 
that doesn't look like it is going to look like a dust bin. 
Forget--well, just again, I think you could do something a 
little bit more conducive to the space.
    The food courts, has anybody here eaten down in the food 
courts lately? Okay. Let me tell you my last experience. I went 
down to the food court. I was going to catch like a train. I 
got there. I got there real early, so I go down to have some 
lunch in the food court rather than eat off--I would say I got 
panhandled at least four times downstairs. The food is pretty 
good. It was----
    Ms. Norton. They were too busy with photographers.
    Mr. Mica. Now, if they would stop harassing the 
photographers and get a little bit of order. I mean, I even 
offered to buy the people lunch. They didn't want it. They just 
want the cash because they are going to go buy drugs or 
whatever. But you guys run the place. Stop the panhandlers down 
where people are trying to--what?
    Mr. Ball. I mean, that is a very serious point.
    Mr. Mica. I am telling you, I am a Member of Congress 
sitting there. They panhandled the living hell out of me. I 
haven't been back since because it was an unpleasant 
experience.
    Mr. Ball. We work on that. That is even tougher than the--
--
    Mr. Mica. What?
    Mr. Ball. That is an even tougher issue than the 
photographers.
    Ms. Norton. Why is it tougher? I am sorry, were you----
    Mr. Mica. No, I yield.
    Mr. Ball. No, just in terms of they, the panhandlers, are 
also citizens, you know. And you know, it is a delicate issue 
just to work with them in terms of, you know, you just can't 
kick them out. That is not allowed.
    Ms. Norton. Well, wait a minute. You can kick photographers 
out, but you can't kick the panhandlers out.
    Mr. Ball. I follow you. I will stop.
    Ms. Norton. I will go back to the Ranking Member in a 
second, but I have to make the distinction.
    Mr. Levy is very quick to cite to me the private facility 
notion. But when it comes to panhandlers on this, quote, 
private facility, then of course you have problems kicking them 
out, and I must say, with some risk to your own bottom line 
since you don't get Mr. Mica going again. But the distinction 
is this. In the streets of D.C., we cannot stop people from 
panhandling. That is entirely public. I just want to know if 
your answer to the Ranking Member is that you don't have the 
legal authority to do so or you haven't figured out how to do 
it; which?
    Mr. Levy. You know--go ahead.
    Mr. Chambers. As far as, just to take you through the 
procedure, because this is an ongoing issue that we have inside 
the station, where our security will address--you know, we do 
prohibit panhandling, as you called it, solicitation, inside 
the building. The challenge that we face is our security firm 
does not have arresting powers. Not that you can necessarily 
arrest somebody for doing such. But we reprimand an individual 
for soliciting; tell them to stop.
    Mr. Mica. I have got a suggestion for you.
    Now, anyone who has been on Capitol Hill, if you go over 
here to, is it First and C, in front of the Capitol Hill Club 
where you come up out of the metro station. Do you know where 
that intersection is?
    Mr. Chambers. Correct.
    Mr. Mica. There is an officer there. His name is Officer 
Thompson. And anybody who is familiar with Capitol Hill, you 
don't jaywalk at that corner. You don't get out of order in any 
way because Officer--you do not even cross when the light 
doesn't have the little people sign on it because Officer 
Thompson enforces the law very strictly. I heard he is going to 
retire the end of this year. You ought to sure as hell 
interview him about going over to Union Station and enforcing 
some of the rules for folks that are trying to have a--would 
you take your family there?
    Mr. Chambers. I have.
    Mr. Mica. I won't even go back because of the harassment I 
experienced. You are talking about shedding a little light on 
Union Station. I am talking about just getting some order. In 
fact, maybe you could have a bus service bring them over and 
take them down to the cafeteria here in the Hart Building and 
let them panhandle among the Members of Congress and the staff 
that eat in the Rayburn cafeteria. I have got a whole host of 
suggestions.
    But again, you know, I am busting your chops a bit. But I 
really would like to see the place succeed. It has succeeded 
well. The same thing I guess probably happened with the movie 
theaters. I would never go to a movie theater because of the 
harassment there.
    Mr. Chambers. That is more along the lines of just other 
opportunities to go in the city in better theaters, quite 
frankly.
    Mr. Mica. Maybe it is difficult because it is down in the--
--
    Mr. Chambers. Yeah, I mean, if you go to any theater 
nowadays with the stadium city, it is not something that is 
doable within our premises.
    Mr. Mica. Well, the other thing, I can't express enough 
encouragement for, again, co-locating all transit, including 
the private carriers, in any reconfiguration, whether it is a 
new extended facility that is connected adjacently or the 
existing facility if there is a rehab. So just a couple of 
points and a little bit of harassment. I will yield back.
    Ms. Norton. Thank you very much for that real-life example. 
I haven't had quite that experience.
    Mr. Mica. Could I invite you to lunch over there some time? 
I am serious. I will take you down there. We will do it. We 
won't tell them when we are coming. And then I will get that 
photographer, wherever she is. She can come and take a picture 
of us and then our friends that we acquired to panhandle.
    Thank you.
    Ms. Norton. Well, we are having a little fun at your 
expense. But we sit here also to assist you and to help you in 
any way you want to.
    I must say, Mr. Chambers, when I heard you say you had no 
arrest power, that is right, because security guards don't have 
arrest power, I couldn't help but think about photographers who 
were threatened with arrest by your security guards. I couldn't 
help but think of that example----
    Mr. Chambers. Yes, ma'am.
    Ms. Norton. As you gave us for the excuse of not getting 
panhandlers out.
    Let me be clear, we were not suggesting that people who are 
hungry be arrested. That was not what we had in mind. Normally, 
this kind of problem, because you say it has been a chronic 
problem----
    Mr. Chambers. For the Hill in general.
    Ms. Norton. --would cause a corporation to do would be to 
get some advice from people who know something about homeless 
people about how to proceed.
    Mr. Chambers. We do.
    Ms. Norton. So you have a chronic problem. Who does your 
advice come from, sir?
    Mr. Chambers. We actually have from the Capitol Hill bid. 
They actually have a homeless ambassador who deals specifically 
with these folks. And they advise us, and they also advise the 
members that are homeless where they can find shelter.
    Ms. Norton. You need somebody who has--these people feed 
people.
    Mr. Chambers. Correct.
    Ms. Norton. And we love it that they feed people.
    That is not the kind of advice you need. You need advice 
about how to in fact get panhandlers off the property short of 
arrest. I recognize about the limits of arrest, and I wish you 
wouldn't cite or tell your security guards that they don't have 
arrest power. You bother me with your security guards, because 
somebody is going to sue this corporation, Mr. Levy, for the 
way in which these security guards are performing. Who is in 
charge of training security guards at Union Station?
    Mr. Chambers. It is actually the training is handled 
internally by the company that we hire. They actually have a 
training program that they go through. It is required by their 
corporation, IPC.
    Ms. Norton. Well, have you had enough evidence here today 
that your security guards are poorly trained?
    Mr. Levy. I think it merits a discussion with IPC, and we 
are going to have a discussion with them.
    Ms. Norton. Well, I am going to ask you to submit within 30 
days a plan for retraining each and every security guard now at 
Union Station and for indicating what the training program will 
be for new security guards. I suggest you get an outside 
consultant who knows something about how to train security 
guards. We don't want--after this hearing, we expect these 
problems to go away. Let me ask--let me ask this question. I 
was asking about the makeover, and understanding that, just as 
we applauded the arrival of businesses, you would want to look 
again, but it looks like basically you are doing changes in 
infrastructure.
    Are you planning to change any of the tenants who are 
there, particularly long-term tenants?
    Mr. Levy. No plans have been finalized. We are still in the 
midst of coming up with that final plan. I don't want to kind 
of divert attention, but we are dealing with the possessory 
interest tax right now, which can be determinative what our 
future plans are.
    Ms. Norton. What can be determinative?
    Mr. Levy. The possessory interest tax.
    Ms. Norton. What does that have to do with tenancy of 
people who have been there for some period of time?
    Mr. Levy. Because we have to have enough money to run the 
station.
    Ms. Norton. Well, you mean the people who have been there 
for some period of time won't pay what it takes as part of 
their leases? I don't understand that.
    Mr. Levy. Well, in determining----
    Ms. Norton. We are not getting into the business of the 
District of Columbia here, so you can put that aside. We don't 
overturn what the District of Columbia does. And I am asking 
you a question that has nothing to do with that. I am simply 
trying to find out what is your policy with respect to long-
term tenants?
    Mr. Levy. And my answer is that it is still being 
finalized. We still haven't come up with a final plan as to the 
long-term leasing goals of Union Station.
    Ms. Norton. Mr. Levy, I have received a letter from a 
colleague that he sent on June 16th, writing on behalf of B. 
Smith's Restaurant. This is a well-known restaurant located in 
Union Station for some years. And other Members of the 
Congressional Black Caucus approached me with respect to B. 
Smith in particular. The concern was, you can lease to who you 
want to, we understand that, but the concern was that if you 
have a business and you see a makeover going on, the absence of 
notice with no opportunity to prepare for possible relocation 
would be not in the interest of anybody concerned. It would be 
very poor business practice. That is why I am asking you. And 
you told me you didn't expect big changes in the basement. Do 
you expect big changes anywhere else in the restaurant? Because 
by not even responding to letters--you did not even respond. 
Mr. Ashkenazy did not even respond to a letter of June 16th 
from Congress Member Elijah Cummings, who has brought this 
matter to the attention of the 43-member Congressional Black 
Caucus. So it just escalated simply because there was no 
response. There was July 16th, what date is this, a letter from 
Alan Sills to B. Smith Restaurant. Letters were followed up 
with several telephone calls. Would you tell us whether those 
phone calls have helped this particular restaurant understand 
how it should proceed?
    Mr. Levy. I can tell you what our ordinary course of 
business is. We frequently receive requests--I believe that was 
a request for a renewal, is that correct, renewal of lease?
    Ms. Norton. I am not even aware. I suppose so.
    Mr. Levy. I don't have it in front of me, so I will just 
assume that that is what it is. And I know that our company----
    Ms. Norton. Extension of their lease currently ends in 
2009.
    Mr. Levy. Right. May 31, 2009.
    Ms. Norton. For an additional term.
    Mr. Levy. And we frequently get those types of requests, 
and they are answered in the ordinary course of business.
    Ms. Norton. Well, this wasn't answered in the ordinary 
course of business.
    Mr. Levy. Well, we typically don't negotiate.
    Ms. Norton. This is 2008, and it is almost gone.
    Mr. Levy. I understand.
    Ms. Norton. This is a major restaurant. If it is going to 
have to move, don't you think they deserve some notice? How 
much notice do you think they should have?
    Mr. Levy. Well, I can tell you for certain that we will 
give them whatever notice they are entitled to under their 
lease, and whatever notice we can provide them outside of their 
lease. I know that it is not only our practice; That it is 
common real estate----
    Ms. Norton. Do the movie theaters have notice that they 
will no longer be in the building?
    Mr. Levy. Those plans are not finalized, ma'am.
    Ms. Norton. But you just told me about them.
    Mr. Levy. They are things that we are working on in order--
--
    Ms. Norton. Well, just a moment. We just heard that you do 
not intend to have movie theaters there. I am simply raising 
questions of fair notice to people who do business under your 
management. And frankly, it reflects on the Government of the 
United States if in fact people are not treated with normal 
business practice. That is why I am trying to find out, since I 
now know that the movie theaters won't be there, they don't 
even know it.
    Mr. Levy. What is that?
    Ms. Norton. You just said we weren't sure whether the movie 
theaters will be there, but we just heard testimony that----
    Mr. Levy. Because the plans haven't been finalized. We 
can't tell them that they are not going to be there. Perhaps we 
will renew their lease.
    Ms. Norton. Don't you think you ought to have a meeting 
with the tenants?
    Mr. Ball, you all may be confused about who is responsible, 
but do know that this Committee is going to hold that public 
corporation responsible. Don't you think that you would want to 
meet with the tenants or instruct Mr. Levy and company to meet 
with the tenants in order to keep Members of Congress from 
having to intervene into your affairs as I am having to do with 
respect to a private matter that normally would not be any 
concern of mine?
    Mr. Ball. Yes, Madam Chairman, we will work on that.
    Ms. Norton. Would you conduct a meeting of you, you, the 
corporation, a meeting of all the tenants, so that they can 
have some understanding of what is occurring, and would you 
have someone from the managing corporation there so at least 
people can have their questions answered so far as they can be?
    Mr. Ball. I will be glad to take that challenge.
    Ms. Norton. You see there has been contradictory testimony 
here today about how we are going to open it up, and there 
won't be movie theaters, but yeah, we haven't really made that 
decision yet. That is very poor business practice. And so I am 
going to ask within 30 days there be a meeting of all the 
tenants where all of you all are there and indicate to them 
with the greatest clarity you can what your intentions are to 
the extent that you have not, which is the easy throw-away 
answer, decided, tell them when you expect to decide.
    These people are in business just like you are, Mr. Levy.
    Mr. Ball.
    Mr. Ball. The answer to your question is yes.
    Ms. Norton. Are you aware, or surely you are aware, of the 
policy of the United States Government with respect to small 
business and disadvantaged businesses, minority businesses, 
women-owned businesses and the like?
    Mr. Ball. Yes, we are, yes.
    Ms. Norton. How many such businesses are there in Union 
Station?
    Mr. Ball. I think the last count, I think it is maybe 40 or 
55 small, disadvantaged businesses. I don't have the exact 
count.
    Ms. Norton. Most of them would be small businesses by 
definition. How many are minority-owned or female-owned 
businesses?
    Mr. Ball. I think the number rests between 40 and 50.
    Ms. Norton. Well, the number reported to us is less than 
half a dozen.
    Mr. Levy, do you have better figures? Maybe it is 40 to 50; 
maybe it is half a dozen.
    Mr. Levy. As of the end of the fourth quarter of 2007, I 
believe there were approximately 54, so I don't know where----
    Ms. Norton. Fifty-four minority- and women-owned, or women-
owned businesses?
    Mr. Levy. That is correct.
    Ms. Norton. Give me examples.
    Mr. Levy. I am going defer to--I am just not all that 
familiar with the actual tenants there, so I am going to defer 
to Bryant just to kind of confirm this from the end of the 
quarter.
    Mr. Chambers. Some of the tenants we have listed here; 
Aurea is minority-owned.
    Ms. Norton. So you are confirming 54?
    Mr. Chambers. Well, I am looking.
    Ms. Norton. You don't have to read the roll.
    Mr. Levy. I just don't have the updated report with me.
    Ms. Norton. Is that how you made sure you were in 
compliance with Federal law on this matter, you reached out and 
brought in those tenants?
    Was Mr. Levy and Ashkenazy aware that that is the policy of 
the United States Government, Mr. Ball.
    Mr. Ball. Yes, we have had discussions--I have had a 
discussion with them on that issue.
    Ms. Norton. In the makeover, Mr. Levy, are you aware that 
that policy will be--that that is the policy of the Federal 
Government?
    Mr. Levy. Absolutely.
    Ms. Norton. Would--now, with this troika here I want to 
make sure I assign the right person.
    Mr. Levy I guess is the--I want to get----
    Mr. Ball. Ms. Norton----
    Ms. Norton. --submitted within 30 days--Mr. Chambers, you 
are the director manager of the property?
    Mr. Chambers. Yes, Third party.
    Ms. Norton. Submit to me names of minority- and women-owned 
businesses in Union Station and whatever evidence you have that 
they are in fact minority- or women-owned. I just need to know 
that, because we have got this--we have got this conflicting--
and it is a very good time to look at it, anyway, if there is 
going to be new things at Union Station.
    Mr. Chambers. Okay.
    Ms. Norton. Buses.
    Mr. Ball, are you aware of the intermodal mandate of the 
United States Congress for Union Station?
    Mr. Ball. No. I havesome knowledge of intermodal. I know we 
do. But what you spoke of about directly, I don't have direct 
knowledge of it.
    Ms. Norton. Well, that makes me want to cry. So you are not 
aware that Congress, ever since 1967 when NCPC, National 
Capital Planning Commission, recommended to Congress that Union 
Station be made an intermodal facility and we have been 
embarking on that ever since?
    Mr. Ball. I mean, that is what we work to. If you ask me 
about a specific bill or something, I can't----
    Ms. Norton. I never ask about bills. I am asking, are you 
aware of the congressional mandate that Union Station become a 
true intermodal facility?
    Mr. Ball. Yes.
    Ms. Norton. Are you aware that it is not that now or 
anything close to it?
    Mr. Ball. I know----
    Ms. Norton. The fact that you put by dint of where the 
subway stops and where the bus stops a number of things in the 
same location, an intermodal center does not make. Let me 
proceed with a detail then.
    Mr. Ball, I believe you gave a rather short shrift, at 
least in a letter to me, about a proposal of a quite reputable 
intercity bus company to sublease spaces that were available in 
Union Station. Here is another matter that comes to the 
Congress, that Congress has delegated to you, sir, and to the 
public officials that sit with you. And these people were told 
that there was something--that their business practice of not 
going through the right process. There was no indication of 
what process they should have used in order to give the people 
of this region access to low-cost bus travel in Union Station 
and to take these buses off of our streets or at least keep 
them from discharging people on the streets of the Nation's 
Capital for want of a place to leave them notwithstanding the 
fact that the Congress of the United States for 40 years has 
mandated an intermodal facility at Union Station. Why was 
either a sublease or some other way for this bus company to be 
located at Union Station, why was it refused?
    Mr. Ball. On that issue, Ms. Norton, the company never even 
approached USRC on that issue.
    Ms. Norton. When I am going to sublease, I approach the 
people who are holding the lease. And if they never approached 
you, why didn't you say, we would be pleased to deal with them 
because we know the Congress means bus service to be in this 
facility?
    Mr. Ball. That probably would have been the best answer. At 
this point, we will look at our policy, and I will work with 
the District to see how we can accommodate these type of buses 
that you mention.
    Ms. Norton. I appreciate that.
    Mr. Ball, within 30 days, I ask you to be in touch with 
those bus companies to indicate that you are considering the 
access possibilities of those bus companies. This is extremely 
troubling to this Member of Congress. In my opening statement, 
I said the people are almost hitching a ride on anything they 
can find because of the gas prices. The notion that we are 
sitting here with an intermodal mandate and you are telling 
somebody, you used the wrong procedure, who told you it was the 
wrong procedure to sublease from the person who holds the 
lease? Did you, in fact--where does it say that in the lease 
hub? Was it Greyhound?
    Mr. Ball. No. Actually, I didn't know that Megabus was 
coming into Union Station until I saw them on a Web page, a Web 
site that said what the services were going to be, so we had no 
idea.
    Ms. Norton. So once you saw they were coming to drop people 
off because they had a valid sublease, you then decided that 
that lease could not be recognized because you hadn't approved 
it?
    Mr. Ball. They never had contacted us. We had no lease. We 
had no business communication whatsoever, Ms. Norton, none. It 
is like----
    Ms. Norton. They had communication or were in the process 
of engaging in communication with the lease holder.
    Mr. Chambers, are you aware that Megabus was turned away?
    Mr. Chambers. I am not.
    Ms. Norton. What is the policy? Does the policy remain what 
it was, that you can't sublease from someone who holds a valid 
lease to spots at Union Station? Is that the policy?
    Mr. Ball. The garage lease is separate than the station 
lease. The garage lease, we have 100 percent jurisdiction over 
what happens in our garage. Us being USRC. In the station, they 
do the retail leasing within the station.
    Ms. Norton. All right. Now, to get past the jurisdictional, 
and I ask Mr. Chambers, and you all, don't play those games 
with me.
    I am holding you, Mr. Ball, before the Congress of the 
United States responsible for every question I ask. You may 
want to delegate these people and make sure they do their job. 
But four out of five people from there are us, and therefore I 
want to know what the policy is going to be on--you already 
told me you would open the policy, then you turned to the 
management. So passing the buck won't work before this 
Subcommittee.
    Mr. Ball. No, I didn't pass the buck. I am saying clearly 
in the parking garage----
    Ms. Norton. Whose responsibility was it? You answered the 
letter, Mr. Ball.
    Mr. Ball. In the parking garage, it is USRC responsibility.
    Ms. Norton. Huh?
    Mr. Ball. Union Station Redevelopment Corporation is my 
responsibility in the parking garage.
    Ms. Norton. What responsibility do you have, Mr. Chambers, 
since you apparently have to do with the bus?
    Mr. Chambers. No. For the parking garage, we have none. And 
we also do not have----
    Ms. Norton. Who has responsibility for the parking garage?
    Mr. Chambers. I do. For the parking garage is USRC.
    Ms. Norton. Do you know what? This Committee has not in the 
past done what other Committees do, which is to swear people. 
Any testimony you give I have automatically taken to be true. 
But obviously, that wasn't true because you then turned to 
others to your right or left.
    Mr. Ball. I am sorry, you misunderstand my answer. If you 
ask me again, I will answer it to the best of my ability. You 
are asking about who controls the parking garage. That is my 
office, Union Station Redevelopment Corporation.
    Ms. Norton. Why did the corporation, through your letter, 
respond that subleases could not be granted? Was there a legal 
base for your response?
    Mr. Ball. Yes.
    Ms. Norton. Had you informed the lease holder that that 
would be the case? What was the policy reason for that 
response?
    Mr. Ball. The policy reason was because the MegaBus 
incident should have come to our office in terms of creating--
--
    Ms. Norton. Well, why did you not instruct them to come to 
your office so you could then consider the matter yourself?
    Mr. Ball. I made a mistake.
    Ms. Norton. That is all right then. All I ask is, within 30 
days, be in touch with them. I am not instructing you to lease 
to them. In fact, who holds the lease, please? I don't know why 
this bus company wants to lease or sublease, but I ask two 
things: one, be in touch; and, two, submit to this Committee 
within 30 days what the sublease policy is. And if your policy 
is no subleases, you better have a very good reason why.
    I can understand why in the public interest you would want 
to have some approval and some say-so, ultimately, if that is 
your view. This was a flat turndown with no indication as to 
why; and I do not know whether it is orally or in writing, that 
competition with Greyhound was cited or Amtrak or something. 
The reason that sticks in my mind is that competition is 
precisely what the Congress of the United States is trying to 
promote in Union Station. That is the whole point, to say when 
you go there, based on your means and your wishes, you can 
travel anywhere, and no way will be denied to you.
    I am going to tell you right now, how often does this 
corporation meet?
    Mr. Ball. The board of directors, this year--we probably 
met at least three times this year. We are in the seventh month 
right now.
    Ms. Norton. Well, Mr. Ball, I also ask you to brief the 
board or their representatives, because this Committee wants to 
see some form of bus service in Union Station by the end of 
this year or be presented with a very good policy reason why 
not. I mean, good policy reasons are, you know, security, not 
reputable company.
    By the way, before we write on behalf of a company, we 
investigate to make sure that we are dealing with a company 
that in fact is one we should be writing for. I will tell you 
one thing. I don't think these people would want to sublease to 
somebody who wouldn't pay their rent. This one was reputable. 
This one was. There may be others. Perhaps what you should do 
is a competition. But this would not have required that, 
because it was a sublease.
    So, be on notice. When it comes to subleases, I don't know 
why that couldn't be done by the end of this year. I want to 
know how many bus spots are not being used at Union Station on 
a regular or daily basis.
    Mr. Ball. Is that a question you want answered now?
    Ms. Norton. Yes, sir.
    Mr. Ball. Okay. As I said I think in my written testimony, 
we park maybe 12,000 buses a year in Union Station. Between 
March and the end of June, we are probably at 100 percent 
occupancy all the time, from let's say 9:00 in the morning----
    Ms. Norton. This is very important. At 100 percent 
occupancy, people parking, what, by the day, by the hour?
    Mr. Ball. Well, buses come in probably between like 10:00 
in the morning until probably about 3:00 in the afternoon. Then 
they pick back up from maybe like 5:00 to 6:00.
    Ms. Norton. So they come to Union Station to let off 
people. Do they leave?
    Mr. Ball. They park. In most cases, they do park their 
buses.
    Ms. Norton. The entire time.
    Mr. Ball. The entire time.
    Ms. Norton. How much does that cost?
    Mr. Ball. $20 between 7 a.m. and 7 p.m. $10 between 7 p.m. 
and 7 a.m. And if they want a reserved spot held, it is $50 for 
the reserved spot.
    Ms. Norton. When you say you are always full, I must say--
--
    Mr. Ball. Again, I am really talking about this period, 
spring period, D.C.'s tour period. Between March and June, we 
are very packed. Then it picks up again between, let's say, 
September and, say, November. We pick back up again where the 
buses come again on a very frequent process. Other times, we 
aren't that busy.
    So what we are really looking for is how to maximize using 
the bus space. We are looking forward to the information which 
comes out from the ITC study just in terms of the different 
uses for the station. We look towards what Congress is doing in 
terms of the Capitol Hill Visitor Center, because we have had 
conversations with the Capitol Visitor Center in terms of--
about their need to park 12 buses here.
    Ms. Norton. I can tell you right now, Mr. Ball, that plan 
is dead. Because the plan was to somehow have the buses park 
there and then pay $1 to get to the Congress of the United 
States. That plan went up in smoke. I have already had 
discussions with the Sergeant at Arms.
    This is not your fault. This has nothing to do with you. 
But what killed it was that somehow buses which now come here 
to Botanic Gardens, leave and then go someplace, you have to 
provide place for them to go, that people get dropped off for 
free would then be sent to Union Station. We don't mind them 
coming to Union Station. We are pleased about that. But we have 
been assured--and I speak now for myself, for the 
Appropriations Subcommittee--that the Botanic Gardens route has 
also to remain there.
    See, that is the kind of planning that has to go on. But 
that is something that was not within your entire sphere. And 
we also think we have come to a way where the District's own 
line that it runs can in fact still be useful without being 
completely taken off the line by the Congress of the United 
States.
    It was the extra cost. It wasn't anything about Union 
Station. But the city couldn't tell us how many spaces, and we 
were very concerned by the fact that there is--how this would 
work with a bottleneck--you know, the framers did that--the 
bottleneck that the circle establishes. And having what they 
conceived of as a lot more tour buses to come up there right as 
we understand it, there will be some renovations on the outside 
of Union Station.
    Mr. Ball. That is a project between USRC, the National Park 
Service and the District of Columbia Department of 
Transportation. So there are a lot of things in the hopper just 
in terms of how it works out.
    Ms. Norton. When is that construction going to begin?
    Mr. Ball. Whenever we get to the NCPC and Commission of 
Fine Arts, that construction should begin.
    Ms. Norton. Do you have the money already for that 
construction?
    Mr. Ball. USRC is doing a 20 percent match. In addition, 
the government does have the money I think from the Federal 
highway.
    Ms. Norton. Well, I live on Capitol Hill. In non-rush 
hours, I avoid that circle. I can't imagine why anybody in the 
transportation business would want to put more buses up there, 
and we are not going to do it.
    But I need to know what your policy is and how you plan for 
buses to come and go in light of our interest in inner-city bus 
service. That is largely my concern and interest. Because I 
have no problem with tour buses coming up there now.
    You may have to think this through once you get to the 
construction phase. Indeed, in that regard, there is an 
unfinished entrance at Union Station that would allow more 
direct access from H Street. I understand that it required $2 
million more, but then there was some problem with obtaining 
indemnification from Amtrak.
    I am so confused by that. If that is all that is standing 
in the way, particularly given how that would relieve some of 
the traffic around the circle, I have to ask you, what is the 
problem with indemnification from Amtrak for want of a $2 
million upgrade that would allow the unfinished entrance more 
directly from First and H Street?
    Mr. Ball. I am not familiar with that issue. I do know----
    Ms. Norton. Excuse me, sir. Who would be?
    Mr. Ball. I have never heard that, so I don't know.
    Ms. Norton. The tunnel that was never completed, Union 
Station----
    Mr. Ball. That is a pedestrian tunnel. That would not 
accommodate--if we are referring to a segment that runs 
parallel to First Street----
    Ms. Norton. Let me indicate that Union Station Plaza 
Associates, whoever that is, has an office building near First 
and H Streets. They have proposed completing the tunnel for 
approximately $2 million.
    Mr. Ball. That would be a pedestrian access. That would go 
from the north end of the Union Station Metro stop down to the 
existing H Street underpass.
    Ms. Norton. That would be very useful, because people could 
at least be dropped off there on foot.
    Again, this goes to whether you are thinking through the 
intermodal----
    Mr. Ball. No, we talked about many of those issues, and I 
didn't realize that is what you were talking about. So that is 
one item that has been looked at.
    Ms. Norton. All right, I just want to get your final 
testimony on that.
    The indemnification from Amtrak issue is what apparently 
stopped the tunnel from going forward initially, because it was 
always planned and would already be there. Are you aware of 
what that issue is?
    Mr. Ball. I am not aware of what that issue is.
    Ms. Norton. All right. Have Amtrak within 30 days submit to 
us what that issue is so we can understand that.
    Is there a different security policy for retail, Mr. Levy, 
for Amtrak, for the parking garage? Who is in charge? Who is 
the master security czar who sees that security intersects? 
Because, as you indicate, there are different kinds of entities 
there.
    Mr. Chambliss. There is no czar, Chairwoman. There actually 
are different entities. You have the Amtrak side of the house, 
which houses Amtrak security and also Amtrak police. You have 
our management firm with the approval of USI that hires IPC 
Security to provide customer service and public safety just in 
the common area spaces.
    Mr. Ball. There is one umbrella. We have what is called the 
Station Action Team, where Union Station Redevelopment 
Corporation, Amtrak and station development all meet and figure 
out security in the building, understand the conditions that go 
in the building every day. If there is a fire alarm which goes 
off, all three entitles meet, if there is a problem in the 
station. So those things are discussed. There is one umbrella 
arm.
    Ms. Norton. They are under one roof, after all.
    Mr. Chambers. Yes. And we are all chairs on that.
    Mr. Ball. Yes.
    Ms. Norton. Is that in writing?
    Mr. Ball. Yes, it is.
    Ms. Norton. Well, I ask you----
    Mr. Ball. It was not in my written testimony, but we do 
have a written--we can provide you with a copy of the station 
action plan.
    Ms. Norton. We would just like to study all this so we know 
what we are talking about.
    Mr. Chambers. Absolutely.
    Ms. Norton. So we would like whatever is in writing in 30 
days.
    Mr. Chambers. Absolutely.
    Ms. Norton. Who wrote this thing, which begins, "Union 
Station is private property."
    Mr. Chambers. That precedes, I believe, all of us at this 
table.
    Ms. Norton. What?
    Mr. Chambers. I believe that precedes--that came--it is 
from the management office.
    Mr. Ball. Ms. Norton, we will find out where it came from.
    Mr. Chambers. We will find out. That was established prior 
to us being here.
    Ms. Norton. Is it still in circulation?
    Mr. Chambers. It is still posted, but it is being revised, 
as I stated earlier in my testimony.
    Ms. Norton. Could I ask it be withdrawn immediately?
    Mr. Chambers. Yes.
    Ms. Norton. Ms. McCann testified that other intermodal 
facilities manage to put their policy right on the Web site. 
This embarrasses me here in the Nation's Capital. I ask that 
this be withdrawn, because it contains factual errors, 
including the factual error that is an insult to the government 
of the United States, "Union Station is private property."
    Most of these would, of course, be the kinds of things you 
want, no smoking inside and so forth. But it is here that the 
tripod camera distinction is made, and it is here that the 
Union Station management reserves the right to prohibit 
photography of any kind in their sole discretion. This is why I 
asked Mr. Levy to give this matter to an outside counsel.
    Mr. Chambers. In the draft we do have, that has been 
stricken. When we do go out to outside counsel----
    Ms. Norton. We would be rather be helpful than critical. If 
you would submit to us before anything is published so we can 
have a look at it. I am asking that you need help in doing 
this, and this is no reflection on you.
    Mr. Chambers. Absolutely.
    Would you like to also have the draft that is in place now, 
or do you want the final product?
    Ms. Norton. We would be glad to look at it, yes, sir, 
rather than have people come back here sending us letters. The 
confusion I am most concerned about is, of course, the 
confusion with security guards, who are left really on their 
own.
    Mr. Ball, the notion of a security guard turning around her 
name, I think that was an Amtrak security guard----
    Mr. Chambers. Correct.
    Ms. Norton. There are some policies with respect to 
security, behavior, courtesy, that are universal, and those 
things are being in writing. I don't blame somebody for being a 
little afraid if someone asks them a question about what their 
name is. If nobody has told them that has to be in place all 
the time and you have got to answer accordingly, then some 
people will try to protect themselves.
    Well, they don't have to protect themselves, as far as I am 
concerned, because the fault lies with both of you, Mr. 
Chambers and Mr. Levy, and ultimately with Mr. Ball. And so I 
am expecting that in the revised training policy, such as it 
is--because I can't find in place any training policy at the 
moment--that this level of detail will be in the new policy so 
that this matter is off of our table.
    Our concern is with the comprehensive intermodal concept 
and with making sure that private management in fact is in 
keeping with that, not with these details that we have been 
forced to spend considerable time with today.
    What is the annual operating cost, Mr. Levy?
    Mr. Levin. I don't have that figure with me.
    Ms. Norton. Mr. Ball would have that figure for the entire 
operation, would you not?
    Mr. Ball. Yes, but I am more familiar with USRC's cost.
    Ms. Norton. We have no idea what we are doing here in 
Congress. We are giving money to an entity, and so we got to 
find out what we are doing.
    Mr. Chambers. We can provide that detail for you, along 
with all the other documentation we are submitting, to see to 
it that you have it.
    Ms. Norton. Thank you very much.
    Before you leave, I want you to know that, as tough as our 
questioning is, it is always tough. As tough as it is, this 
Subcommittee has a reputation for being of assistance to 
agencies.
    We had a very serious problem to occur with Federal 
Protective Service where we found a felon running a security 
matter. We found people not being served. But we had to bring 
it out.
    This was a part of Homeland Security. We worked closely 
with the official in charge, the Assistant Secretary, and when 
they fixed this so the contractors were paid on time and they 
reordered the way they did contracting and they put out written 
material and they established a czar, we had a press conference 
with them. And this was a Republican administration. I asked 
the Assistant Secretary to stand with me, very unusual, with a 
Member of Congress, to say what the agency, not in my immediate 
control, had done, because I was so pleased with how they 
responded to tough questioning at our hearing.
    Our view is, if you are going to be tough--and that is the 
only way you can find out anything in your questioning--then 
when the agency performs you have got to be equally generous in 
making sure that the public knows.
    We had a press conference. We didn't just write them a 
letter, had a press conference. See what these people have done 
in the administration to fix this agency?
    We are more than ready to do that with this federally owned 
facility and working in partnership with you.
    Mr. Ball, you had something to say before you leave?
    Mr. Ball. I am sorry. I didn't mean anything. Go ahead.
    Ms. Norton. You just seemed to be befuddled. That is all 
that was. Don't be befuddled. We gave that example just because 
it is the most recent example of how we follow up. Even though 
the questioning may reflect "gotcha," we don't go "gotcha." 
Look, let's get together. That was really "let's get together 
and fix this."
    Mr. Ball. I can appreciate that. I think you raised some 
very valid points, and it gives me a chance to go back and look 
at the policies we have had in place for a period of time. So I 
appreciate that and welcome criticism, and we will respond to 
your questions.
    I have been at Union Station for 20-plus years. I know back 
in 1984 we received $7 million for Amtrak, for the restoration 
of the station, and the city put $40 million in to rebuild the 
parking garage behind Union Station. But, since that, we 
haven't received any other Federal monies that have come into 
the station. So what we have done----
    Ms. Norton. That is why we set up a public-private 
partnership, because the monies received now will go into the 
intermodal notion. Union Station will and has indeed received 
funds, but it doesn't go into its operations. That public-
private partnership is supposed to in fact make sure its 
operations sustain themselves.
    Of course, we have to see what your books show us on that. 
We want to see whether or not you are operating in the black or 
not, and you need to submit that to this Committee. Don't 
expect us to subsidize this public-private partnership. That is 
the whole point. That doesn't mean we don't have the same kind 
of oversight we have over a Federal agency, and we intend total 
exercise it.
    I want to thank all of you for your testimony. I want you 
to know that the Subcommittee, indeed, the Congress, has 
examples of the kinds of things we are talking about when we 
say submit something. If you would like examples or you would 
like guidance, the Subcommittee staff is prepared to offer you 
guidance on what we mean. We don't mean to just leave you out 
there saying find it the best way you can. The best way may be 
simply to submit something to us, to have the Subcommittee look 
at it. Then you go back, and it won't be we are handing down 
the law, it will be for our comment. Then we will ask for your 
comments. That is how we do business.
    Thank you very much, all three of you.
    Do you want to call the next witnesses?
    David Leach, President and Chief Executive Officer of 
Greyhound; Emeka Moneme, the Director of our D.C. Department of 
Transportation; and Thomas Wilbur, Senior Vice President of 
Akridge.
    Our apologies that you have waited so long. We are holding 
the first oversight hearing on the first comprehensive hearing 
on Union Station in memory, and that accounts for the many 
issues that were before us. Your testimony is very important to 
us.
    Let's proceed with Mr. Moneme, the Department of 
Transportation, and then go to Mr. Leach and, finally, Mr. 
Wilbur.

  TESTIMONY OF EMEKA MONEME, DIRECTOR, DISTRICT DEPARTMENT OF 
  TRANSPORTATION; DAVID LEACH, PRESIDENT AND CHIEF EXECUTIVE 
OFFICER, GREYHOUND LINES, INC.; AND THOMAS WILBUR, SENIOR VICE 
                 PRESIDENT, AKRIDGE CORPORATION

    Mr. Moneme. Good afternoon.
    Chairman Norton, thank you for having me here to speak on 
behalf of Mayor Adrian Fenty.
    Members of the Subcommittee, I am Emeka Moneme, Director of 
the District of Columbia Department of Transportation. We also 
referred to as DDOT. I thank you for this opportunity to join 
in the discussion on the current uses and future improvements 
of Union Station.
    DDOT has been tasked with the responsibility of analyzing 
the feasibility of future development in and around Union 
Station specifically as it relates to the ability of the 
adjacent transportation system to accommodate that development. 
As such, my remarks will focus on the Union Station Intermodal 
Transportation Center Feasibility Study that DDOT is currently 
managing.
    Before expounding on the feasibility study, let me offer a 
few thoughts on congestion and transportation options in the 
region.
    Over the past 20 years, the District has witnessed a 
tremendous explosion of vehicle trips within and through the 
city. In a recent Texas Transportation Institute Study, 
Washington, D.C., was rated the second most congested city in 
the Nation. Unfortunately, this trend is expected to continue.
    The Metropolitan Council of Governments forecasts that 
vehicle trips within and into the District will increase by 
approximately 32 percent by 2030. We have seen a similar trend 
in transit ridership with Metrorail breaking daily and monthly 
ridership records. At the current rate of ridership growth, 
Metrorail crowding will be unmanageable by 2013, unless 
capacity expanding investments are made. Finally, the Maryland 
Transit Administration also reports that most MARC commuter 
train lines are running near capacity, with some lines already 
at capacity.
    In order to combat these alarming trends while allowing the 
city to continue to grow and provide for the millions of 
visitors to the Nation's Capital, the capacity to move people 
into and around the District must be expanded. The District is 
implementing a number of initiatives, including bicycle 
sharing, enhanced transit service, and a performance parking 
program to encourage the use of multiple non-vehicular options 
which will reduce the number of vehicle trips into and through 
the city. WMATA is moving forward on full utilization of eight-
car trains in the coming years, and MTA plans to infuse over 
half a billion dollars into the MARC system over the next 25 
years to procure rail cars and expand and modernize service.
    More than ever, we are in need of a state-of-the-art, 
multi-modal transportation hub in our region to accommodate the 
billions of dollars in transit investments previously 
mentioned. The historic Union Station has served the region and 
the country well, but its present infrastructure limitations 
restrict its ability to accommodate the current and future 
transit demand. As such, a new ITC is needed for the District 
and for the region to continue to thrive.
    The feasibility study began in February of 2008. Its 
overarching purpose is to investigate how to make feasible the 
development of the Burnham Place development, design and 
construction of a new ITC at Union Station, including the 
proposed commercial and residential development.
    The study area of the project encompasses an approximately 
20-square-block site bounded by M Street to the north, Third 
Street to the east, Massachusetts Avenue to the south, and 
North Capitol Street to the west. In particular, the study is 
analyzing the impacts of creating enhanced access to the 
multiple modes of transportation at and around Union Station.
    The study's analysis is considering the following areas: a 
baseline transportation improvement study, new rail passenger 
concourse, upgraded Amtrak passenger concourse, improved 
emergency access and egress to the station, improvements to the 
existing rail concourse, tour bus and commuter parking 
accommodations, the D.C. streetcar and integrating that system 
into the ITC, a pedestrian tunnel from Union Station to First 
Street Northeast, a new Metrorail entrance from the H Street 
bridge, a baseline environmental study, and then, finally, the 
interrogation of the Metropolitan Branch Trail to the facility 
and the possibility of an additional bicycle storage facility.
    So there is much being considered in this study. It really 
is the first comprehensive study of the Union Station 
transportation network, and it will prompt us to conduct 
further detailed analysis and develop a framework for 
implementing the study's short-term and long-term 
recommendations.
    DDOT has developed two advisory committees to educate the 
public and key stakeholders on the parameters of the study. A 
Community Leaders Committee was created, consisting of 
representatives from the local A&C commissions, resident 
councils, neighborhood associations and other community based 
organizations. A Technical Advisory Committee was also formed, 
comprised of over 20 business, government and quasi-
governmental groups. Both groups were briefed on the study this 
spring. Collectively, the committees will comment on the 
study's technical analysis and offer timely feedback.
    Since the early spring, the study team has provided 
briefings on the project to civic and citizen organizations 
upon request. Additional community meetings and a tour of the 
facility are planned for later this summer following their 
review of the draft report on the basic technical studies.
    The data collection phase of the study began in mid-
February and lasted through mid-June of this year. The data 
analysis phase immediately followed and lasted from mid-May 
through mid-July. Currently, we are preparing to begin 
formulating preliminary architectural concepts derived from the 
baseline studies and anticipate the study will be completed in 
the late fall of this year, where final recommendations will be 
unveiled.
    In conclusion, DDOT welcomes the opportunity to lead this 
feasibility study. Its findings will inform and incent billions 
of dollars of future development at Union Station. But, most 
importantly, it will create a path for major capital 
enhancements that will significantly improve and expand 
transportation options for millions of individuals traveling 
through and within our Nation's Capital.
    DDOT will continue to work with the community and other 
partners to complete the study, and we will look forward to 
implementing its recommendations to ultimately create a world-
class transportation hub at Union Station.
    Thank you for the patience in reading the testimony. I will 
be happy to answer any questions you may have.
    Ms. Norton. Thank you very much, Mr. Moneme.
    Next we go to Mr. Leach. Mr. Leach is the President of 
Greyhound.
    Mr. Leach. Madam Chairman and Members of the Subcommittee, 
I appreciate the opportunity to appear before you today to 
discuss Greyhound's plans to relocate to Washington Union 
Station.
    Greyhound is eager to move to Union Station and has been 
actively engaged in discussions focusing on making that happen. 
I greatly appreciate the strong support for that initiative 
shown by this Subcommittee and the Full Committee leadership.
    Greyhound has been operating in its current terminal 
location at First and K Streets, Northeast, since 1987. There 
have been off and on discussions about Greyhound moving to 
Union Station ever since, but, up until recently, they have not 
been successful. Despite these setbacks, Greyhound has remained 
very interested in moving to Union Station.
    We strongly believe in intermodal terminals and are now 
located in over 100 intermodal facilities nationwide. That 
number has been steadily increasing. These intermodal 
facilities greatly benefit the traveling public by allowing 
travelers to use public transportation, both local and 
intercity, to travel seamlessly from origin to destination.
    The benefits to D.C. residents of Greyhound moving to Union 
Station are particularly striking. Over 50 percent of riders at 
Greyhound's current location get to Greyhound by local transit. 
This is so even though those riders who come by Metrorail have 
to walk three long blocks with their luggage from Union Station 
or almost the same distance from the new Florida Avenue Metro 
Station. These riders would benefit tremendously from being 
able to just ride up or down the escalators to get from Metro 
to Greyhound. Furthermore, this dramatically improved 
convenience would lead to increased usage of the Metro 
Greyhound connection at a time when the public is searching for 
affordable and convenient public transportation.
    Fortunately, a series of circumstances are converging that 
provide a unique opportunity to finally make this move a 
reality. The Greyhound terminal lies at the heart of NoMa, the 
area north of Massachusetts Avenue that the D.C. Government has 
targeted as one of the most important elements for development 
in downtown. This means that both the city and Greyhound have a 
strong vested interest in moving the Greyhound operations to 
Union Station as soon as possible so that Greyhound can sell 
its property for redevelopment.
    At the same time, the Ashkenazy Company, the new landlord 
at Union Station, has developed preliminary plans for 
renovation and expansion of Union Station's interior space. 
This will enable Greyhound to substantially reduce its Union 
Station footprint and the capital cost of its space. With the 
sale of its existing terminal, Greyhound will have the funds to 
build out its interior space, as well as construct limited 
facilities on the bus deck.
    Finally, the support that the leadership of this 
Subcommittee and Committee has shown for Greyhound's move to 
Union Station have been very helpful. Your March 20, 2008, 
letter expressing strong support for the relocation was the 
catalyst for this action.
    With all of these favorable developments, the parties have 
been meeting. I believe there is a common desire among the 
parties to make the move happen as soon as possible, but there 
are issues that need to be addressed.
    Amtrak needs to get fully engaged. Although the plans have 
been drawn to separate the bus and rail ticketing and waiting 
functions on different levels, it is important that there be a 
dialogue with key Amtrak decisionmakers on these plans. I met 
with Mr. Kummant on this issue today, and we have agreed to 
work together on any security or passenger concerns that Amtrak 
may have.
    The plans for the renovation and expansion of the interior 
area need to be finalized and approved. The financial terms of 
the project need to be negotiated and agreed to. This includes 
the level of Greyhound's capital contribution and its lease 
terms for the occupancy of the space.
    Greyhound plans to pay for the build-out of this space, but 
the contribution needs to be amortized through its lease 
payments, and the lease terms must be consistent with Greyhound 
being able to continue to provide affordable transportation in 
an economically viable manner.
    The timeline for completion of the project must be agreed 
to so that Greyhound can move forward with the sale of its 
current property.
    The transfer date needs to fit with the projected move-in 
date at Union Station.
    I believe that all these issues can be resolved. The 
project has a very high priority for Greyhound, and I commit to 
you that Greyhound will do everything in its power to make it 
succeed. I have been and will continue to be personally 
involved. I believe that other parties have a similar 
commitment, and I am confident that we can succeed.
    Thank you for this opportunity to receive testify, and I am 
happy to answer any questions you might have.
    Ms. Norton. Thank you, Mr. Leach.
    Ms. Norton. Mr. Wilbur.
    Mr. Wilbur. Madam Chairwoman, Members of the Committee, I 
am Tom Wilbur and I am a Vice President with Akridge, the 
Washington-based company that purchased the air rights adjacent 
to Union Station above the rail yards. Thank you very much for 
this opportunity to discuss our plans and ideas for this crown 
jewel in the Nation's inventory of grand historic buildings.
    Today, I will provide an update on our project and describe 
some of the exciting improvements for the station and adjacent 
areas we are studying. However, let me begin by expressing our 
enthusiasm and commitment to the long-term success of Union 
Station.
    As a local development firm with more than 30 years of 
experience here, we have participated in the redevelopment of 
the city. From the Homer Building, which we completed in 1990, 
to Gallery Place in 2003 and now in the Southeast, Southwest 
and Northeast quadrants, where we have projects in our pipeline 
totaling more than 7 million square feet, we have seen the 
District of Columbia become a world-class city, a place with 
outstanding architecture and mixed use, 24-7 neighborhoods 
rivaling any major city in the world.
    Our company's commitment to the civic, cultural and 
environmental health of our city is long-standing. In fact, our 
firm's founder, Chip Akridge, regrets that he is unable be here 
today, but commitments in his capacity as the Chairman of the 
Trust for the National Mall have taken him out of town.
    Union Station is a unique resource which is representative 
of the renaissance of Washington, D.C. Because it is located at 
the intersection of the central business district, Capitol 
Hill, the Capitol complex and the merging NoMa and near 
northeast neighborhoods, our development, called Burnham Place, 
and Union Station serve as critical anchors for the development 
of the eastern portion of downtown Washington.
    Union Station is the entry to the city for every walk of 
life, from the Wall Street banker arriving from New York to the 
legislator working on Capitol Hill to the Metro rider from 
Silver Spring to tourists from Phoenix, a commuter from 
Baltimore, or a student riding from Gallaudet by bicycle, all 
of these people converge and rely on Union Station.
    Our project, named after Daniel Burnham, the architect who 
designed Union Station, provides an opportunity to reclaim the 
property over the tracks, currently a void which divides 
several important neighborhoods, and turn it into another great 
mixed-use neighborhood, bringing vibrant activity and economic 
benefits to the city. As a model, think of the Park Avenue air 
rights development at Grand Central Station in New York that 
occurred early last century.
    A little history. As you know, in 1997, Congress mandated 
the fair market sale of the 15-acre Amtrak air rights parcel, 
with the proceeds to be deposited in the Federal Treasury. In 
2002, the GSA conducted a competitive bid process and accepted 
our proposal. We closed on the property in 2006, and since that 
time we have been planning for a 3-million-square-foot mixed-
use development. We also have been working with DDOT on plans 
to modernize and expand the intermodal transportation 
facilities at Union Station, as well as preserve options for 
future transportation modes.
    Earlier this year, we engaged the architectural firm, 
Shalom Baranes Associates, to begin the planning and design of 
Burnham Place. Like Akridge, Shalom Baranes has played an 
integral role in shaping the development of the National 
Capital Region. Its list of newly designed and redeveloped 
buildings include the Warner Theater, American Red Cross 
National Headquarters, the John Wilson Building, International 
Spy Museum, and the Homer Building atop Metro Center, which 
houses Akridge's offices. The firm is also currently working on 
the redevelopment of the Waterside Mall, Southeast Federal 
Center, the Old Convention Center site and expansion and 
redevelopment of GSA's National Headquarters.
    Our early plans for Burnham Place indicate a number of 
potential uses such as first-class office, hotel, retail, 
entertainment, cultural and residential buildings. This project 
presents a rare opportunity for substantial downtown 
redevelopment without any displacement in a land-constrained 
city. These developments will also leverage significant public 
investments already made in the area, such as the construction 
of the New York Avenue Metro Station and D.C.'s Great Streets 
Initiative, which includes planned streetcar service on H 
Street, Northeast.
    The strategic importance of Union Station is what attracted 
our firm to this development opportunity. Its centrality to the 
success of Washington is also what has motivated our 
partnership with DDOT and our desire to help facilitate public 
improvements for the station. A more efficient, pleasant and 
safe intermodal facility is critical for the City, the region 
and, indeed, the entire Nation. And the station has no shortage 
of critical needs and opportunities for improvements.
    Originally used solely for intercity rail service, Union 
Station now serves over 100,000 passengers via 14 modes of 
transportation in addition to thousands of visitors and 
shoppers. Many station places are crowded, uncomfortable, and 
pose conflicts for those utilizing the station for different 
purposes. Akridge's development of the air rights presents a 
once-in-a-lifetime opportunity to address these challenges. 
Construction of our concrete deck and connection to the north 
end of the station provide an ideal time to concurrently 
undertake many important forms of modernization in the ITC.
    Some of the ideas that we are looking at include a newly 
expanded Amtrak and VRE passenger concourse with upgrades to 
the existing waiting areas; a new pedestrian connection between 
H Street and the station to disperse the flow of people 
entering and leaving the building; a new emergency evacuation 
roadway between Columbus Circle and H Street; the creation of a 
facility to accommodate Greyhound buses; a new extension of the 
Metro tunnel pedestrian walkway to H Street; a pedestrian 
connection between NoMa and Burnham Place near First and Eye 
Streets, Northeast; and expanded parking facilities for tour 
and commuter buses.
    Executing many of these ambitious ideas will require 
intensive collaboration and support from the stakeholders who 
have a vested interest in the operation and future of the 
station. Akridge is glad to have Amtrak, WMATA, MARC, VRE, 
DDOT, USRC, the Ashkenazy Acquisition Corporation and many 
others as key allies in this process; and we look forward to 
continuing these partnerships to study and execute these 
important projects.
    Thank you again for this opportunity. That concludes my 
remarks. I would be glad to answer any questions the Committee 
might have.
    Thank you.
    Ms. Norton. Thank you very much, Mr. Wilbur.
    Mr. Moneme, I was pleased just to say a few words at the 
DDOT community outreach, I guess it was, in relationship to the 
intermodal transportation study you are embarking upon. I 
indicated, of course, to management and to the corporation that 
they should proceed on the intermodal concept well before we 
get this mega-facility built. Nevertheless, your work is 
centrally important.
    Could I know, first, what is the expected time frame for 
the final report?
    Mr. Moneme. Yes. We plan to have final recommendations 
September-October of this year.
    Ms. Norton. Very good. Do you have any estimates now on the 
cost for the intermodal center at Union Station?
    Mr. Moneme. I don't believe we are that far along to 
actually have a sense of what the real costs would be. 
Hopefully, coming out of the recommendations in the study, we 
can begin then to put some cost estimates on the elements and 
the recommendations that come out of the study. We will 
probably have some detailed reports and technical reports to 
begin to flesh out the full costs of the elements.
    Ms. Norton. I have been relishing this description of what 
is being planned, much of it public infrastructure, and then I 
have been scratching my head to say how will we pay for this. 
And, of course, Mr. Wilbur knows I have been getting small 
amounts out toward the infrastructure, part of it. Congress is 
very serious about it, and the more public transportation 
becomes indispensable--is the only word for it--the more 
serious we got to get.
    But have any of you given any notion to how one would put 
together a package that paid for the public portion of this 
matter?
    Mr. Moneme. Well, I think there has been some thought given 
to how that might happen. I think in my testimony I did touch 
on some of the ways it is actually happening. Maryland, the 
State of Maryland, has already made a commitment to make 
improvements in the service coming from both the Penn and the 
Camden lines that come in and stop at Union Station.
    Ms. Norton. At Union Station, Mr. Moneme?
    Mr. Moneme. Most of it is focused on their rolling stock 
for the majority of it, but I think there may be some 
improvements that we could commit both from them--the 
improvements for the D.C. streetcar are coming from D.C. local 
funds.
    So there are contributions that are coming from people that 
are being serviced from Union Station. I think we can bundle 
those contributions together to get some sense of what public 
resources are being committed to the project. And then we can 
also look across the aisle to our private partner. We know 
there are going to be resources they will be making in making 
sure that Burnham Place comes off.
    I do anticipate that there will be some gap there, and I 
think that is where it is probably anticipated that we will be 
talking to you and telling you a little bit about what that gap 
looks like, what we think makes the most sense to fund, or 
maybe how to fund that gap there.
    Ms. Norton. Yes. Because we are talking train concourses, 
grand design, which is exactly what we ought to be talking 
about. And, obviously, the Federal Government has to be in this 
and in this substantially. I say this at the same time that we 
are on pay-go up here, and it is hard to eak out money.
    Nevertheless, the reason that this is an intermodal system 
is the Federal Government, the District of Columbia and the 
private sector each have so much to gain from it. So, 
obviously, the more we are able to get elsewhere, such as from 
the reauthorization of the transportation funds for the 
District of Columbia as one source, the greater leverage I have 
in reminding Congress of its vested interest in this project.
    Mr. Wilbur, how long did it take you to negotiate with 
Union Station for the details that finally freed you up to 
begin to work pursuant to the air rights?
    Mr. Wilbur. We spent about 4 years, about 3-1/2 years, from 
the time that we won the bid for these air rights from GSA 
until we were able to close, which was spent--some planning was 
actually done during that period, but a lot of it was being 
able to take care of some technical issues with it, some title 
issues, so we could make sure exactly.
    It was a pretty complex set of improvements throughout 
there, and defining exactly where those air rights would start 
and where they would end was quite a bit of work. But over that 
period of time we developed a great relationship I think with 
USRC, with the retail operator on the project, with the D.C. 
Government, and we basically got started on our planning at 
that point.
    Since then, we spent a fair amount of time working on 
getting our team together. I would say it has been about 7 or 8 
months now that we have been in deep levels of planning with 
this, with Shalom Baranes and with two different structural 
engineers.
    One of the biggest issues that we have when you talk about 
costs, obviously, the project costs are something we have to 
make work, also, and the most crucial aspect of this is how to 
build the platform for this project over those tracks. The cost 
of that is the thing we are spending a considerable amount of 
time technically to figure out how that is going to work.
    Ms. Norton. You mean the platform for passengers?
    Mr. Wilbur. Actually, this is a platform where our project 
would actually be elevated about 20 feet above the track level.
    Ms. Norton. You mean for the entire project?
    Mr. Wilbur. For the entire project. So, basically, where we 
have our air rights, we have to penetrate all of our columns 
down in between the tracks and in some areas span over a number 
of tracks where the tracks start to converge.
    Ms. Norton. That is not unprecedented in this country, is 
it?
    Mr. Wilbur. Excuse me?
    Ms. Norton. Building over such air rights, that is not 
unprecedented, is it?
    Mr. Wilbur. No, it is actually the most common in areas 
like Chicago and New York.
    Ms. Norton. I have in mind Chicago in particular.
    Mr. Wilbur. Lots of them in Chicago. I think it happens 
where people--particularly where you have areas where you could 
build very tall buildings and you have a lot of density, 
because the expense of building over the tracks is very 
expensive, and then if you have more square footage that you 
can build up above, you can spread that over that construction.
    Because, basically, the cost to build a platform for one or 
two or three stories is not that much different than it is for 
20 or 30 stories. It is basically the construction techniques 
you have to work on by building this platform above operating 
railroad tracks.
    Ms. Norton. Well, let me just say for the record I am 
pleased that you have developed a good working relationship, as 
you testified, with the corporation. The Committee was 
frustrated by having to meet with the corporation simply to say 
we don't care what you decide. But, in our judgment, it took 
much too long to get to the point where you could proceed.
    You see, we have gotten to the point where now the economy 
is in trouble. Actually, I think that is a good time to invest 
in infrastructure. But that was very bothersome for the 
Committee as we looked at the corporation. We knew that the 
Akridge company wanted to proceed quickly, and we also were 
mindful of the complexity. But there is impatience in this 
Subcommittee to proceed, and the Full Committee. The Full 
Committee Chairman has been the moving figure almost since he 
came to Congress, and he has been here almost since there has 
been a Congress, we laugh and tell him.
    So this is a project of long-standing concern; and, even as 
I press for its realization, I am mindful that even under the 
best of circumstances we can't get the new intermodal center 
for years to come.
    I want to ask all three of you whether you consider Union 
Station an intermodal system now and, if so, why, and, if not, 
what would you do to make it an intermodal center?
    I haven't heard you from, Mr. Leach. Maybe you should be 
first.
    Mr. Leach. Well, I wouldn't consider it an intermodal 
because intercity bus isn't there. There are some charter 
operations, but we need Greyhound in that facility. We need 
other intercity bus operators in that facility.
    Ms. Norton. But Greyhound cannot go in there until the new 
facility is built, or could it go earlier?
    Mr. Leach. We believe it can go right now.
    Ms. Norton. Are you in discussions that might make that 
happen?
    Mr. Leach. We are currently working with the corporation on 
those efforts, yes.
    Ms. Norton. You indicate that Amtrak needs--looking at your 
testimony--needs to be fully engaged. You say, I am planning--I 
know that, because Greyhound has come to see us, knowing of our 
Federal interests. But you say, "It is important that there be 
a dialogue with key Amtrak decisionmakers on these plans."
    Then you say, as if this had to be done by now, because 
there is a hearing, and you didn't mean this, but you just mean 
to tell us at least it is proceeding, that you meet with Mr. 
Kummant on this issue today.
    Mr. Leach. Yes. Actually, I had breakfast with him this 
morning.
    Ms. Norton. I need to know what you discussed, and I need 
you to know that the notion that this missing ingredient from 
the intermodal vision needed Amtrak and that a "dialogue" is 
beginning makes us believe that the intermodal may be very 
long--some long time in coming.
    Have there been any discussions before today with Amtrak? 
Since you detail the involvement of Amtrak and the ticket 
counter and the rest in other parts of your testimony, was 
today the first time you had a dialogue with anybody from 
Amtrak?
    Mr. Leach. No, ma'am, there has been dialogue for 
approximately 5 or 6 months.
    Ms. Norton. Why do you say that it is important that there 
be a dialogue with key decisionmakers? Have these have been 
unkey decisionmakers?
    Mr. Leach. We have had difficulty in getting key decisions 
made from the folks at Amtrak. I have been assured by Mr. 
Kummant this morning that that would not be the case going 
forward and that we would get all of the appropriate concerns 
that Amtrak has with Greyhound being a part of Union Station.
    Ms. Norton. I don't mean to put you or Mr. Kummant on the 
spot here. I will tell you who is on the spot: moderate- and 
low-income people in the District of Columbia who are denied 
what you can easily get in any major city worth the name.
    I have to ask Mr. Moneme, what happens? We have had 
complaints about people being dropped off and picked up. They 
made this sound like a one-horse town. Do you have any 
information on how these companies do business here, or are 
they simply deterred from doing business at all because there 
is no place to have any kind of passenger drop-off?
    Mr. Moneme. If I could, I want to see if I can answer your 
first question about whether or not Union Station is an ITC, 
and then I will speak to the inner city.
    By pure definition, I think that Union Station--and this is 
by USCOT definition, where two or more modes of transportation 
intersect, you have an ITC; and, by definition, we do have an 
ITC----
    Ms. Norton. We certainly don't have one. We already had 
that at the time that Union Station was constructed.
    Mr. Moneme. Exactly.
    Ms. Norton. So you go to the lowest common denominator and 
then you have one. At the time, in 1981, they already had two 
or more, and yet Congress has been trying to say make yourself 
intermodal ever since then.
    So, Mr. Moneme, I understand your pride in making sure that 
everybody knows there are places for some diverse sets, taxis, 
for that matter, but I do want you to understand that Congress 
would not be talking about making this an intermodal system if 
all you needed was a place for a couple of modes of 
transportation to rest and then to get up and leave. In that 
respect, there are places outside of Union Station that would 
qualify. Greyhound qualifies, because I can get a taxi there, 
and I can get a bus there.
    So we need to press you towards pressing all concerned so 
that we have an intermodal facility where everybody can, in 
fact, find access, perhaps not the access we will have when 
Akridge is finished, but access to all modes of transportation 
in the Nation's Capital.
    Mr. Moneme. I agree with that comment completely. And I 
think one of the things we are doing, even on a separate track 
from the investment that we will be seeing from Akridge on the 
development, is tying together all those modes of 
transportation there, making sure that there is appropriate 
signage for those that decide to bike to that location to find 
out where the other modes are, whether it would be commuter 
rail, whether it be Metrorail, whether it be taxi or, one day, 
eventually tying in inner-city buses.
    So we agree with you. It needs to be more intermodal, I 
guess--if that is such a term--more intermodal, more tied 
together, more connected.
    As for the inner-city bus issue, we are very, very well 
aware of it; and I think the city's position is it is obviously 
a very important part of our transportation network. It is 
transportation options for people across the board of all 
socio-economic--across the strata of socio-economics.
    What we have been working on over the really last 7 weeks 
is we have heard the increased desire for more of those options 
to be identified and have a home or have a place in the city. 
We have heard from the business community that some of the 
locations downtown are not the most ideal for the operation of 
the downtown, the central business district. They do take up 
sidewalk space and impact people's ability to move around, but 
we also believe that they have a rightful place somewhere in 
the city.
    So we are spending time learning more about the industry, 
not just I guess the names that you hear more about, the 
biggies, I guess you call them, the Greyhounds and whatnot. But 
there are other operators in the city getting started, and we 
feel they have a role to play in our service options available 
to people.
    So we are identifying locations where it makes sense to 
congregate, provide space for them, so that both the day-to-day 
operation of the city can still function and so also people can 
get access, easy access, to those locations. We are hoping 
within a few, few short months, we will have a more clarified 
plan about how to organize.
    Ms. Norton. So you don't know where these folks are, 
really?
    Mr. Moneme. We do. We do. We have surveyed.
    Ms. Norton. How many people are leaving people and picking 
them up where they can?
    Mr. Moneme. Approximately 12 to 13 companies operate in the 
District of Columbia.
    Ms. Norton. They are competing with you, Mr. Leach, aren't 
they? Some of them can't possibly compete with you. They are 
not going to have ticket facilities, and I know in some ways 
accommodating them may mean more competition to you. But I 
would like to ask your view on these people who now don't have 
to even have any overhead whatsoever in order to compete with 
you. We are for keeping the fares low but not at the expense of 
traffic in the District of Columbia. So will you give us your 
view of this and where they should be located?
    Mr. Leach. Well, Madam Chairman, we have watched as these 
curbside operations have successfully grown the market. They 
haven't necessarily impacted Greyhound or Greyhound's network 
of routes. We have a lot of strength in the network. But city--
--
    Ms. Norton. In fact, you are making money here, unlike some 
of the modes we deal with on the Transportation Committee, 
isn't that so?
    Mr. Leach. That is correct.
    Ms. Norton. Unlike Amtrak, unlike the airlines, unlike 
WMATA, you are making money.
    Mr. Leach. That is correct. We have watched these curbside 
operations grow the market. So what we have done in response to 
that is launched our own curbside operation. In fact, we think 
we have the most superior of those curbside operators----
    Ms. Norton. How do you do it, Mr. Leach?
    Mr. Leach. --in Bolt Bus, which is a wholly-owned 
subsidiary of Greyhound. So we recognized the need for 
competition.
    Ms. Norton. Do they come to D.C., Mr. Leach?
    Mr. Leach. They do, absolutely.
    Ms. Norton. How do they manage to leave people? I don't 
blame you. I would not do otherwise if I were in business. But 
how do they manage to come here and leave passengers and take 
them away?
    Mr. Leach. We work on a pure Internet basis, so people have 
to buy tickets on the Internet. They get on on the curbside and 
they get off on the curbside. We operate in Boston-New York, 
New York-Philadelphia and New York-Washington.
    Ms. Norton. I am not going to make you incriminate yourself 
to the District of Columbia. They know how to get that 
information from you.
    Mr. Leach. We share it regularly.
    Ms. Norton. Those curbsides are in downtown Washington 
somewhere or other?
    Mr. Leach. Correct.
    Ms. Norton. How can you do anything else? There is a huge 
demand for that service. The service is being filled by people 
who are competing with you with none of the expenses you have. 
So you make your own subsidiary, adding to traffic in DC.
    Mr. Moneme, you have done an admirable job in 
transportation, but, on this notion, I don't see how you could 
have let this go on this long. I am not suggesting that you had 
a way to get them into Union Station. I mean, Greyhound can't 
get in there until this construction takes place. But I don't 
know why you wouldn't have been pushing with everybody else to 
get them to have some kind of drop-off space there.
    We are not asking for the tickets to be sold there. We are 
not asking for the accommodations that Greyhound will have to 
put up capital money to get. We are just asking for 
accommodations, frankly, to our residents and to regional 
residents who are in increasingly big trouble with this 
economy.
    So I appreciate that you are working on the intermodal 
plan, but I want to ask you within 30 days to get us the names 
of all of these companies and your suggestions. We are willing 
to work with you on a temporary way to accommodate this. These 
people don't have to be let off in the most convenient spot in 
the city.
    They are just glad to get here. They will get themselves a 
metro or some other way. Members of Congress complain daily 
about traffic downtown and try to get into our business. And I 
am left here to push back. But I need the city to help, 
particularly with the drop-offs. You can't just get on there 
and say here is my fare. At least Greyhound can't. I don't even 
know about the rest of them. But the city, if they are coming 
into our city, has the capacity to demand certain kinds of 
information from that. If you can't get it they cross regional 
lines of the country and we can get it.
    So we are willing to help you very much. But that is a big 
problem that we can get rid of with a little concentrated 
thinking. And I ask you in 30 days to at least give us your 
thinking on ways to do it. I mean things like possible 
destinations. They don't have to be the final ones. Whether or 
not--because on this I have no view whether or not what Mr. 
Leach does, which says, look, you have got to do it on line, is 
the only way to do it. Some of these are the poorest people in 
the world. They may not have any other way to do it. So either 
Mr. Leach's people are fairly upscale relative to many 
residents of the region. You may want to consult with Mr. Leach 
and his own subsidiary who will have some sense. But I ask you 
to proceed to do that within 30 days. Now, again, not a 
finished product, but to show us that you are starting on that.
    Mr. Moneme. No, I appreciate your comments. That is very 
much what we had in mind. Actually, I can share with you some 
of the plan interactions we did have with the operators in 
several months, to actually sit down with all the operators and 
talk a little bit about what has been their experience, some of 
the concerns, many of them that you have raised already, that 
we have. The one thing that we have been very mindful of is we 
want to provide as many transportation options to the citizens 
of not just the D.C. Region, but frankly the entire East Coast 
that use this service. And we don't want to, as you said 
before, we don't want to discourage competition in any way, we 
want to actually be a catalyst for the benefit of our 
residents, so we have been trying to walk a fine line. And we 
appreciate being of assistance.
    I think some of your questions and comments are very much 
on point, and we will be more than happy to share with you our 
thinking thus far.
    Ms. Norton. Thank you.
    Mr. Wilbur, I know this is early to ask, but people in your 
business always try to make some--get some sense of where what 
they are doing is leading in terms of what those who will be 
there will need. I wonder if you have any sense of the expected 
increase in ridership once Burnham Place is completed and what 
connection you see between Burnham Place and the rest of the 
facility?
    Mr. Wilbur. We have not had an economic study done at this 
time to evaluate your first question. I would say that the 
second question really----
    Ms. Norton. You do realize that some people are going to 
be--let us look at the mixed use part--are going to be moving 
precisely because you are so close to the transportation 
center?
    Mr. Wilbur. Yes, I do. One thing I would like to say is 
that I think 25 years ago when I first came to Washington is 
when this plan for Union Station came about. And I think at the 
time it was really a visionary thing to be able to bring retail 
into that area. And I think it has been a very successful 
project in the sense of having the retail there. Obviously 25 
years later we have a very different Washington, D.C. than we 
had before. That was a very neglected area, it wasn't an area 
that was attracting much investment. And also in that time I 
think the advantages of mixed use development have become much 
more evident to people. Also, the word "smart growth" didn't 
even exist at that time, which was the idea of getting 
development and putting it around transportation hubs.
    So I would say absolutely the thing that is really one of 
the main things missing in this ITC is the fact of having more 
mixed use development. And that is really what our development 
is going to bring. We have some challenges.
    Ms. Norton. And by that you mean what; would you describe 
what you might expect there?
    Mr. Wilbur. First of all, maybe I could just tell you a 
little bit about the project. We are still very much in the 
planning phases, but kind of how this works, because there was 
some question on that in questions earlier, and I don't think 
that the folks who were there were quite able to do it because 
they don't really know what is happening there. But I think you 
have to think about, first of all, connections, which is really 
what this project is all about. We are very much connected to 
the Union Station. We are also connected to the H Street 
bridge. And the H Street bridge connects us to the 
neighborhoods. The elevation of this project, if you are going 
to go to it from inside Union Station, you would go up the 
escalators up to where the parking garage is at. And once you 
get up to that elevated area, that would really be our first 
floor of our building. And that is at about where the crown of 
the H Street bridge is. So again it is a little hard to 
visualize because we are probably about 25 feet above where the 
tracks are at. There would be access to our project both from H 
Street and to Union Station.
    Ms. Norton. Without going outside?
    Mr. Wilbur. The opening between the H Street and Union 
Station, right now we are looking to have that space open to 
the sky with people walking through. But your experience going 
through that space is going to be superior architecture and it 
will be retail. Not retail of the type that Union Station has, 
but it will be just first floor retail that would be engaging 
to someone so that the walk that would take place, which is a 
pretty long walk, would be a pleasant one. And you would be 
able to get from H Street in the neighborhoods over to Union 
Station. And then of course from Union Station, you would be 
able to come up to our project also.
    That area south of H Street, between H Street and the 
connection to Union Station, would have a platform above the 
first floor, where the first floor would be all retail, we 
would probably have three to four different buildings that 
would be built there that would be office and residential that 
would provide the density that would be able to support our 
construction of the slab. On the north side of H Street, 
originally when we were looking at this project we weren't 
quite sure we could build anything there, and now we are 
looking definitely to build there, and on the other side of H 
Street, north of H Street, we are looking at probably putting 
in a hotel, maybe a residential project, it could be some 
supplemental parking.
    So we are looking at a very dense project. It is one that 
would be very connected to Union Station. It would add a 
tremendous amount of daytime population as well as nighttime 
population and 7-day a week population for people who would not 
only use the transportation system, because the people who are 
going to be attracted to those properties are going to be those 
who buy into the economic and/or environmental advantages of 
using the public transportation system. So I think that is 
good.
    The other aspect is you will have the people there that 
will provide more vibrancy for the area, which again makes it 
more of a people place because the transportation, the kind of 
energy that you get from that is one thing, but you have got to 
have the people there and you want them there basically 24/7.
    So that is kind of our overall vision for the project, to 
take what right now has got a nice retail operation there. 
Fortunately Ashkenazy has taken over. They are going to put 
major capital improvements into the retail. They are going to 
retool that for a new retail environment today. And then 
basically we are going to make them into a mixed use project, 
because we are going to bring the other uses, the office, 
residential, some retail, but fairly minor amount of retail, 
and hospitality uses to the project. And then there could be 
some other things, some cultural uses, too.
    But I think what we are going to be doing is making that 
link together seem like a single project, and I would say that 
that is similar to what we did at Gallery Place. Remember that 
we have a project that is next to the Verizon Center and we 
connected that project to the Verizon Center so we could get 
the synergies between it. We also had opening areas between the 
streets so the people could walk through so that there was good 
transportation patched through even whether it is on streets or 
even alley ways. And that is the way we want to have this 
project.
    We don't have a city grid to deal with here. But we are 
going to do the best that we can to make it a more walkable 
neighborhood by combining our project in with Union Station.
    Ms. Norton. When you talk about H Street, a city as compact 
and small as D.C. Cannot afford that wasteland between North 
Capitol and maybe First Street or even beyond. And there it is, 
you know, nothing happening. Can't afford it, can't live with 
it, and we are going to find that out during this period when 
we are experiencing some financial difficulties. This has been 
very fortunate until now and will be more fortunate than the 
rest of the country. But even as I heard you speak with some 
innovation, I see possibilities when paying for this 
infrastructure, when you talk about all that is going to go on 
there, if there is a will I see a way to move forward given the 
amount of private expenditures that are planned and the vested 
interest that the private sector, especially commercial sector, 
has in its happening. And we have got to think that way or 
getting it done with large amounts of Federal funds and the 
like is going to not only delay it, but make it impossible.
    Who is your major contact, Mr. Wilbur? Is it the 
corporation, the public corporation, or is it the management 
that run Union Station complex?
    Mr. Wilbur. We work through USRC, but we are going to need 
to work closely with all the groups. That is Ashkenazy, we have 
had meetings with them, too, and they are excited about our 
plans.
    Ms. Norton. I am sure you are briefing everybody. I just 
want to make sure, who do you go to when you need to get 
something done by others and by the corporation itself?
    Mr. Wilbur. David Ball would be our person to go to.
    Ms. Norton. Well, that is right. And that is why I told him 
the buck stops with him. He just can't pass it, because 
Congress created this public corporation with almost no private 
sector members precisely to be able to locate responsibility. 
So it is important that that is your understanding as well.
    One final question, Mr. Moneme, not because I intended it, 
but somebody raised the bus notion. And you know that is my big 
disappointment with the District of Columbia, because for all 
the good work you have been doing in transportation this notion 
about people having to go to Union Station and then pay a buck 
to come see their Member of Congress, I have saved you from the 
perils of Members who if we had allowed that plan to go ahead 
would have left all your expectations in complete and total 
disarray.
    I need you to come see me. I won't take the entire time. I 
have met with others. You have not been back to us. I will say 
that we want to use the Circulator. We think we have found a 
way to do it without charging people extra money. We do not 
believe that it is feasible to send the tour buses or the 
larger number of tour buses to Union Station. We will be 
using--we will continue to use to the greatest extent possible 
the Botanic Garden site. The golf carts are underused. They 
have, I think they said, two of six on the average are what are 
used. We are not satisfied given the fact that you have to go 
to the front with even the golf carts. We believe there is a 
way for the Circulator to come up Constitution Avenue, let 
people off at the corner.
    We applaud your notion of public transportation. We decided 
not to rest on having another fight with the Senate on going to 
First Street. That is my biggest fight yet to be solved, 
because I think you had a good plan for that. I want you to 
know the task force is looking at better screening for the 
buses. They have been informed. You can screen all you want to. 
Those buses are not going into the Capitol Hill neighborhood. 
They will not go across First Street. I don't care if its safe 
enough to put babies in. We are not going to increase pollution 
in that section of Capitol Hill. That lower section of Capitol 
Hill is a very residential part of the District of Columbia.
    So it is either the Circulator, which has to be innovative 
enough to get the dollars it hopes to get from rerouting 
people, or it is what we hope and are clear must be some other 
form of public transportation. I would be pleased to brief you 
on where we are. The Sergeant of Arms--in the absence of the 
District of Columbia in coming up with a plan that would not be 
instantly overturned by Congress, the Sergeant of Arms will be 
writing you about the plan that will be in place for at least 
tour buses coming to the Capitol of the United States. There 
was very deep concern in Congress about how long it was taking. 
And because we now have a plan that we think will be 
satisfactory to the District of Columbia we would like to sit 
down with you for any alternations you might suggest in it at 
your convenience.
    Your testimony, gentlemen, has been as important as the 
testimony we heard before. You are the real engines that make 
this run. Mr. Leach, you are--I just have to thank you for keep 
pressing ahead in terms of what you outlined as what kinds of 
need you will have in terms of your capital costs and 
amortization. I mean anybody in business would understand that 
those are the kinds of things you do if you want something to 
happen.
    Our concern about Greyhound and interbus travel is that we 
have seen no will, no will on the part of the corporation, or 
for that matter even the people who have something to gain 
economically, the management. Nothing happens, especially in a 
city like this, without will. You make things happen. And thus 
we are going to make happen intercity bus travel for residents 
of the District of Columbia. You are more indispensable than 
ever.
    Mr. Moneme, you have a very tough mandate and you have 
acquitted it well. We are sorry about the problem that arose 
with respect to the--what do you call it--the Circulator. I 
always want to call it the commuter. The Circulator. But 
Members of Congress saw that as a way for the District of 
Columbia to fund the Circulator. If you want me to be clear, 
that is how Members perceived it. And I didn't have any answer 
to that because I saw piling up, as you know from your 
testimony, piling up the buses at Union Station. I thought it 
was a traffic hazard, not to mention the dollar that I knew 
would be the end of it.
    Mr. Wilbur, long before you get a full fledged intermodal 
center up, I ask you, because you are in business, Akridge has 
been one of the most innovative developers in the city, to help 
the corporation and the management on the road to true 
intermodal. And the impatience that is reflected in me as a 
Subcommittee Chair about getting us quickly, more quickly to 
the grand visionary part of this, we are prepared to act on. It 
will take private sector funding innovation to help us do it if 
we want to get the infrastructure part completed. The likes of 
Akridge are in the business of figuring things out of this 
kind, and I ask you to continue what appears to be a very good 
relationship with the actors at Union Station complex, and 
especially to share with them some of that creativity that has 
made Akridge one of the leading developers in the region.
    I thank Akridge here right on the record for what you are 
doing for the mall. The fact that Akridge, that Chip Akridge is 
heading the extraordinary effort to solicit half a billion 
dollars in funds for the National Mall is an indication of the 
success you have had in your business because that is not 
something Mr. Akridge would undertake without such success, or, 
if I may say so, that he would be asked to undertake by the 
public sector unless he had shown extraordinary success in his 
own business.
    Thank you all for your testimony at this hearing, and 
please continue to communicate with Subcommittee staff and with 
my own staff to the extent that we can be helpful to any of 
you. Thank you very much. The hearing is adjourned.
    [Whereupon, at 1:35 p.m., the Subcommittee was adjourned.]

    [GRAPHIC] [TIFF OMITTED] T3753.004
    
    [GRAPHIC] [TIFF OMITTED] T3753.005
    
    [GRAPHIC] [TIFF OMITTED] T3753.006
    
    [GRAPHIC] [TIFF OMITTED] T3753.007
    
    [GRAPHIC] [TIFF OMITTED] T3753.008
    
    [GRAPHIC] [TIFF OMITTED] T3753.009
    
    [GRAPHIC] [TIFF OMITTED] T3753.010
    
    [GRAPHIC] [TIFF OMITTED] T3753.011
    
    [GRAPHIC] [TIFF OMITTED] T3753.012
    
    [GRAPHIC] [TIFF OMITTED] T3753.013
    
    [GRAPHIC] [TIFF OMITTED] T3753.014
    
    [GRAPHIC] [TIFF OMITTED] T3753.015
    
    [GRAPHIC] [TIFF OMITTED] T3753.016
    
    [GRAPHIC] [TIFF OMITTED] T3753.017
    
    [GRAPHIC] [TIFF OMITTED] T3753.018
    
    [GRAPHIC] [TIFF OMITTED] T3753.019
    
    [GRAPHIC] [TIFF OMITTED] T3753.020
    
    [GRAPHIC] [TIFF OMITTED] T3753.021
    
    [GRAPHIC] [TIFF OMITTED] T3753.022
    
    [GRAPHIC] [TIFF OMITTED] T3753.023
    
    [GRAPHIC] [TIFF OMITTED] T3753.024
    
    [GRAPHIC] [TIFF OMITTED] T3753.025
    
    [GRAPHIC] [TIFF OMITTED] T3753.026
    
    [GRAPHIC] [TIFF OMITTED] T3753.027
    
    [GRAPHIC] [TIFF OMITTED] T3753.028
    
    [GRAPHIC] [TIFF OMITTED] T3753.029
    
    [GRAPHIC] [TIFF OMITTED] T3753.030
    
    [GRAPHIC] [TIFF OMITTED] T3753.031
    
    [GRAPHIC] [TIFF OMITTED] T3753.032
    
    [GRAPHIC] [TIFF OMITTED] T3753.033
    
    [GRAPHIC] [TIFF OMITTED] T3753.034
    
    [GRAPHIC] [TIFF OMITTED] T3753.035
    
    [GRAPHIC] [TIFF OMITTED] T3753.036
    
    [GRAPHIC] [TIFF OMITTED] T3753.037
    
    [GRAPHIC] [TIFF OMITTED] T3753.038
    
    [GRAPHIC] [TIFF OMITTED] T3753.039
    
    [GRAPHIC] [TIFF OMITTED] T3753.040
    
    [GRAPHIC] [TIFF OMITTED] T3753.041
    
    [GRAPHIC] [TIFF OMITTED] T3753.042
    
    [GRAPHIC] [TIFF OMITTED] T3753.043
    
    [GRAPHIC] [TIFF OMITTED] T3753.044
    
    [GRAPHIC] [TIFF OMITTED] T3753.045
    
    [GRAPHIC] [TIFF OMITTED] T3753.046
    
    [GRAPHIC] [TIFF OMITTED] T3753.047
    
    [GRAPHIC] [TIFF OMITTED] T3753.048
    
    [GRAPHIC] [TIFF OMITTED] T3753.049
    
    [GRAPHIC] [TIFF OMITTED] T3753.050
    
    [GRAPHIC] [TIFF OMITTED] T3753.051
    
    [GRAPHIC] [TIFF OMITTED] T3753.052
    
    [GRAPHIC] [TIFF OMITTED] T3753.053
    
    [GRAPHIC] [TIFF OMITTED] T3753.054
    
    [GRAPHIC] [TIFF OMITTED] T3753.055
    
    [GRAPHIC] [TIFF OMITTED] T3753.056
    
    [GRAPHIC] [TIFF OMITTED] T3753.057
    
    [GRAPHIC] [TIFF OMITTED] T3753.058
    
    [GRAPHIC] [TIFF OMITTED] T3753.059
    
    [GRAPHIC] [TIFF OMITTED] T3753.060
    
    [GRAPHIC] [TIFF OMITTED] T3753.061
    
    [GRAPHIC] [TIFF OMITTED] T3753.062
    
    [GRAPHIC] [TIFF OMITTED] T3753.063
    
    [GRAPHIC] [TIFF OMITTED] T3753.064
    
    [GRAPHIC] [TIFF OMITTED] T3753.065
    
    [GRAPHIC] [TIFF OMITTED] T3753.066
    
    [GRAPHIC] [TIFF OMITTED] T3753.067
    
    [GRAPHIC] [TIFF OMITTED] T3753.068
    
    [GRAPHIC] [TIFF OMITTED] T3753.069
    
    [GRAPHIC] [TIFF OMITTED] T3753.070
    
    [GRAPHIC] [TIFF OMITTED] T3753.071
    
    [GRAPHIC] [TIFF OMITTED] T3753.072
    
    [GRAPHIC] [TIFF OMITTED] T3753.073
    
    [GRAPHIC] [TIFF OMITTED] T3753.074
    
    [GRAPHIC] [TIFF OMITTED] T3753.075
    
    [GRAPHIC] [TIFF OMITTED] T3753.076
    
    [GRAPHIC] [TIFF OMITTED] T3753.077
    
    [GRAPHIC] [TIFF OMITTED] T3753.078
    
    [GRAPHIC] [TIFF OMITTED] T3753.079
    
    [GRAPHIC] [TIFF OMITTED] T3753.080
    
    [GRAPHIC] [TIFF OMITTED] T3753.081
    
    [GRAPHIC] [TIFF OMITTED] T3753.082
    
    [GRAPHIC] [TIFF OMITTED] T3753.083
    
    [GRAPHIC] [TIFF OMITTED] T3753.084
    
    [GRAPHIC] [TIFF OMITTED] T3753.086
    
    [GRAPHIC] [TIFF OMITTED] T3753.087
    
    [GRAPHIC] [TIFF OMITTED] T3753.088
    
    [GRAPHIC] [TIFF OMITTED] T3753.089
    
    [GRAPHIC] [TIFF OMITTED] T3753.093
    
    [GRAPHIC] [TIFF OMITTED] T3753.094
    
    [GRAPHIC] [TIFF OMITTED] T3753.095
    
    [GRAPHIC] [TIFF OMITTED] T3753.096
    
    [GRAPHIC] [TIFF OMITTED] T3753.097
    
    [GRAPHIC] [TIFF OMITTED] T3753.098
    
    [GRAPHIC] [TIFF OMITTED] T3753.099
    
    [GRAPHIC] [TIFF OMITTED] T3753.100
    
    [GRAPHIC] [TIFF OMITTED] T3753.101
    
    [GRAPHIC] [TIFF OMITTED] T3753.102
    
    [GRAPHIC] [TIFF OMITTED] T3753.103
    
    [GRAPHIC] [TIFF OMITTED] T3753.104
    
    [GRAPHIC] [TIFF OMITTED] T3753.105
    
    [GRAPHIC] [TIFF OMITTED] T3753.106
    
    [GRAPHIC] [TIFF OMITTED] T3753.107
    
    [GRAPHIC] [TIFF OMITTED] T3753.108
    
    [GRAPHIC] [TIFF OMITTED] T3753.109
    
    [GRAPHIC] [TIFF OMITTED] T3753.110
    
    [GRAPHIC] [TIFF OMITTED] T3753.111
    
    [GRAPHIC] [TIFF OMITTED] T3753.112
    
    [GRAPHIC] [TIFF OMITTED] T3753.113
    
    [GRAPHIC] [TIFF OMITTED] T3753.114
    
    [GRAPHIC] [TIFF OMITTED] T3753.115
    
    [GRAPHIC] [TIFF OMITTED] T3753.116
    
    [GRAPHIC] [TIFF OMITTED] T3753.117
    
    [GRAPHIC] [TIFF OMITTED] T3753.118
    
    [GRAPHIC] [TIFF OMITTED] T3753.119
    
    [GRAPHIC] [TIFF OMITTED] T3753.120
    
    [GRAPHIC] [TIFF OMITTED] T3753.121
    
    [GRAPHIC] [TIFF OMITTED] T3753.122
    
                                    

</pre></body></html>
